<html>
<title> - NATO POST-60: INSTITUTIONAL CHALLENGES MOVING FORWARD</title>
<body><pre>[Senate Hearing 111-628]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-628

         NATO POST-60: INSTITUTIONAL CHALLENGES MOVING FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate






                  U.S. GOVERNMENT PRINTING OFFICE
61-621 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON EUROPEAN AFFAIRS        

            JEANNE SHAHEEN, New Hampshire, Chairman        

CHRISTOPHER J. DODD, Connecticut     JIM DeMINT, South Carolina
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   BOB CORKER, Tennessee
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware

                              (ii)        










                            C O N T E N T S

                              ----------                              
                                                                   Page

DeMint, Hon. Jim, U.S. Senator From South Carolina...............    34

    Prepared statement...........................................    45


Hamilton, Dan, Director of Center for Transatlantic Relations, 
  School of Advanced International Studies (SAIS), Johns Hopkins 
  University, Washington, DC.....................................     5

    Prepared statement...........................................     8


Hunter, Hon. Robert, Senior Advisor, Rand Corporation, 
  Washington, DC.................................................     3


Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     1

    Prepared statement...........................................     2


Wilson, Damon, Director of the International Security Program, 
  the Atlantic Council of the United States, Washington, DC......    20

    Prepared statement...........................................    22


Wood, Colonel Joseph, Senior Research Fellow, German Marshall 
  Fund, Washington, DC...........................................    25

    Prepared statement...........................................    28

                                 (iii)

 

 
                      NATO POST-60: INSTITUTIONAL 
                       CHALLENGES MOVING FORWARD

                              ----------                              


                         WEDNESDAY, MAY 6, 2009

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:05 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen (chairman of the subcommittee) presiding.
    Present: Senators Shaheen, Kaufman, Risch, DeMint.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Chairman Shaheen. I apologize for the delay. That voting 
just keeps getting in the way. Thank you to all of our 
panelists for joining us. We are expecting some of the other 
Senators to be here shortly, but I think in the interest of 
time--and I recognize that Ambassador Hunter has to leave 
shortly--so we will go ahead and begin.
    I'm Jeanne Shaheen. I'm the chair of this Subcommittee on 
European Affairs. And this subcommittee meets today to discuss 
the future of perhaps the most successful regional security 
alliance in history, the North Atlantic Treaty Organization. I 
want to welcome everyone here, and expect ranking member of the 
subcommittee, Senator DeMint, to be here shortly.
    I'm going to submit my full statement for the record and 
just do an abbreviated opening here. But I think it's important 
to point out, as I'm sure everyone here knows, that last month, 
NATO members converged on France and Germany to celebrate the 
alliance's 60th anniversary. The meeting was very much a 
celebration of NATO's past success, but I think it also 
provided an opportunity for us to take stock of NATO's long-
term future. And that's what we're here today to talk about.
    Our hearing will focus on the strategic institutional 
challenges facing NATO. Our discussion is particularly timely, 
as NATO members begin to rewrite its strategic concept 
document, which has not been updated since 1999. Though 
Afghanistan is NATO's first out-of-the-area military 
commitment, and it remains the most pressing issue for the 
alliance, we're really here today to consider those 
institutional questions which will define NATO's composition, 
its scope, its relationships, and ultimately, its success in 
the long term.
    We have a very distinguished panel with us this afternoon. 
First is Dr. Daniel Hamilton, the director of the Center for 
Transatlantic Relations at the School for Advanced 
International Studies at Johns Hopkins University. Thank you, 
Dr. Hamilton, for joining us.
    Next is Ambassador Robert Hunter, who is a former U.S. 
Ambassador to NATO and currently a senior advisor at the RAND 
Corporation. Thank you, Ambassador Hunter.
    I also want to welcome Damon Wilson, who is the director of 
the International Security Program at The Atlantic Council, and 
was a deputy director to NATO under the NATO Secretary General. 
Thank you.
    And finally, we have Joseph Wood, a senior resident fellow 
at the German Marshall Fund and retired Air Force colonel. 
Thank you all very much for being here.
    And I would, if the other panelists do not object, ask if 
we could have Ambassador Hunter begin, since he is, I'm afraid, 
going to have to leave us to catch a flight. So please, 
Ambassador Hunter.


    [The prepared statement of Senator Shaheen follows:]


                 Prepared Statement of Senator Shaheen

    The Senate Foreign Relations Subcommittee on European Affairs meets 
today to discuss the future of perhaps the most successful regional 
security alliance in history, the North Atlantic Treaty Organization 
(NATO). I want to welcome you all here today and I'm honored to be 
joined by the ranking member of this Subcommittee, Senator Jim DeMint.
    As you all know, last month, NATO members converged on France and 
Germany to celebrate the alliance's 60th anniversary. The meeting was 
in large part a celebration of NATO's past successes. However, it was 
also a time to take stock of NATO's long-term future, which we intend 
to discuss today.
    Our hearing will focus on the strategic institutional challenges 
facing NATO. Our discussion is particularly timely as NATO members 
begin to re-write its Strategic Concept document, which has not been 
updated since 1999. Though Afghanistan--NATO's first ``out of area'' 
military commitment--remains the most pressing issue for the Alliance, 
we are here today to consider those institutional questions which will 
define NATO's composition, scope, relationships, and ultimately, its 
success in the long-term.
    Over the last six decades, NATO's mission to collectively defend 
its members has remained the same, yet the threats to the alliance have 
changed significantly. No longer is the Alliance's primary concern the 
defense of the Fulda Gap in Germany. Today, threats to Alliance members 
are as likely to come from furtive non-state actors sneaking across 
borders or computer hackers slipping through cyberspace as they are 
from invading military forces. Like any successful institution, NATO 
must continue to adapt to meet these new realities and challenges.
    Since the end of the Cold War, institutional questions have focused 
primarily on composition and enlargement. NATO's ``open door'' policy 
has been successful in supporting a Europe that is whole, free, and at 
peace. Success has been due in no small part to the support of the U.S. 
Congress and prominent leaders like Senator Lugar. It says much about 
enlargement's success that many of the relatively new NATO members, 
including Poland, the Czech Republic and others, are now fighting to 
preserve the Alliance in Afghanistan and beyond.
    The Alliance must work to find consensus on defining the scope of 
its responsibilities and missions. Threats including nuclear 
proliferation, cyber warfare, energy security, piracy, even pandemic 
health problems will continue to test Alliance members; yet NATO has 
limited resources and capacities to deal with these non-traditional 
challenges. NATO members must clearly determine how and where it can be 
effective in meeting the wide range of 21st Century threats.
    NATO must also determine how it wants to interact with non-NATO 
members and institutions. NATO-Russia relations will be the most 
pressing among these institutional relationship questions, but NATO's 
strategic interaction with the European Union, with China, and with 
organizations like the UN will also figure prominently in this debate.
    In short, NATO has a number of critical strategic questions to 
ponder in the near term. It will not be easy to find consensus on these 
issues, which is why it is so important that the full Senate confirm 
the nominations of two officials who will play an important role in 
this effort--Dr. Ivo Daalder to be the U.S. Ambassador to NATO and Dr. 
Phil Gordon to be the Assistant Secretary of State for European 
Affairs. I hope the Senate will move quickly on these nominations.
    Today, we have a distinguished panel to explore these critical 
issues. Each of our panelists has broad expertise and decades of 
experience on NATO and Transatlantic relations. Their resumes speak for 
themselves, but I'd like to very briefly introduce them.
    First, we have Dr. Daniel Hamilton, the Director of the Center for 
Transatlantic Relations at the School for Advanced International 
Studies at Johns Hopkins University. Dr. Hamilton has held a variety of 
senior positions in the State Department and was most recently the lead 
author of the Washington NATO Project's report entitled Alliance 
Reborn.
    Next, we have Ambassador Robert Hunter, a Senior Advisor at the 
RAND Corporation and a former U.S. Ambassador to NATO. Ambassador 
Hunter has served in a number of senior-level White House and Pentagon 
positions focused on NATO and European issues.
    I'd also like to welcome Damon Wilson, the Director of the 
International Security Program at the Atlantic Council. Mr. Wilson 
served in a number of high level capacities on the National Security 
Council and at NATO, where he was Deputy Director under the NATO 
Secretary-General.
    Finally, we have Joseph Wood, a Senior Resident Fellow at the 
German Marshall Fund. A retired Air Force colonel, Mr. Wood was Deputy 
Assistant to the Vice President for National Security Affairs at the 
White House and has served throughout the Pentagon and in NATO.
    We have a great panel today on a timely and critical issue, and we 
look forward to hearing your testimony. Thank you.


     STATEMENT OF HON. ROBERT HUNTER, SENIOR ADVISOR, RAND 
                  CORPORATION, WASHINGTON, DC

    Ambassador Hunter. Thank you, Madam Chair, for your 
indulgence. And thank you very much for the opportunity and the 
honor to appear before you at such an important time, and also 
to be on a panel with three very distinguished individuals.
    One of the great virtues of NATO, which is reflected in 
what you do in leading your subcommittee and in what all these 
other folks do, is it's always been bipartisan. We don't divide 
on NATO. It's always been so important. And, in fact, no 
administration, no Congress would ever succeed unless they had 
the backing of the two parties.
    This is not just your normal father's NATO we're talking 
about. We're about to enter NATO Phase 3. We have reached the 
end of the post-cold-war transition, and which under U.S. 
leadership, NATO took those actions necessary to bring to an 
end the most troubled century in European history and perhaps 
world history, and to build a basis for a permanent European 
security based upon George H.W. Bush's very important 
geopolitical insight of trying to create a Europe whole and 
free and at peace.
    Right now, however, everybody's looking again at whether 
NATO's worth it to revalidate the alliance and to determine 
whether there'll be a 65th or a 70th anniversary, other than a 
shell organization. The fact is that we, and most of our 
allies--and I'm going to over-generalize--are looking at our 
basic security interests in different ways. We're very much 
focused upon the Middle East and Southwest Asia following 9/11 
with what's happening in Afghanistan, with Pakistan today, the 
endgame in Iraq, our concerns with Iran, a whole host of 
matters.
    Very few of our allies see it that way. In fact, most of 
the allies are with us--and all 28 allies are with us in 
Afghanistan--not because they share necessarily our perspective 
of what could happen to them if indeed there is not success 
against al-Qaeda, against the Taliban, but essentially to 
please us because of the importance they see in the 
relationship with us, and also so that NATO will continue and 
not fail.
    In fact, if they had their preference, they would see much 
more effort being focused closer to home, including the work 
that still remains in Europe, of which the future of Russia is 
perhaps the most important concern, reinforced by what happened 
last year with the Soviet Georgia war.
    The allies also want the United States to do a number of 
things: To have the capacity for leadership, not just in what 
they care about, but in general; to keep the moral high ground; 
to be the one country, because none of them are able to do it, 
that really can do an awful lot of the things that need to be 
done in the world. And as a result, they've been willing to do 
things beyond the European environment that they would not on 
their own have chosen to do.
    We, therefore, have to come up with a new bargain in NATO, 
a new bargain in transatlantic relations, if we're going to see 
these institutions work for the future.
    In fact, when we talk about transatlantic, North Atlantic 
security, we're not just talking about NATO. In fact, I think 
we really need to start at the other end, which is what are the 
jobs that have to be done, and what institutions are best able 
to do it?
    In some cases, that'll be NATO. In other cases, it will be 
other institutions, of which I believe the European Union is 
most important, which is another reason your subcommittee is so 
important. You're going to have to help sort all this out and 
come up with ideas that could really revalidate a whole series 
of issues in regard to security in the transatlantic 
relationship in the broader sense.
    Fortunately, this has already begun through the trip that 
President Obama paid to Europe last month that you alluded to, 
which does, among other things, underscore U.S. leadership and 
regaining moral high ground. It's not just one summit, it was 
four. I think the most important was the G20 because the world 
is looking to the United States to regain its reputation for 
being able to lead in preserving and extending and revitalizing 
the global financial system, the global economic system. And 
that is absolutely critical for them to pay attention to other 
things we want and also to be willing to do things in security 
that we want.
    He also did some other things. He met with the President of 
Russia, Mr. Medvedev, and demonstrated that the United States 
and Russia are prepared to begin a new kind of relationship. 
That's critically important to the allies. For some who were 
worried about Russian encroachment on their security, whether 
it's the Baltic States or Ukraine or others who were worried 
about a new confrontation, Germany and Italy, in that category. 
The putting of the antimissile sites in the deep freeze for a 
time was a very good message by the President. Doesn't mean we 
changed things.
    The renewal of efforts to try to deal with the Iranian 
question. The allies are, of course, very worried about the 
future of Iran. They were also worried that the United States 
might be headed toward a confrontation maybe, a conflict. The 
revitalization of building on what the last administration did, 
if Arab is really peacemaking, for the allies, extremely 
important, in part, because of so many Muslims there are in 
Europe. In fact, their most important domestic concern is to 
integrate a lot of Muslims.
    The President then went on to the European Union, and 
unfortunately, I think a lot more could have been done there in 
Prague. And then he went to Turkey to try to repair that 
important relationship and to reach out to the Muslims.
    Now what do we do? I think there's some things the United 
States needs to do in order to encourage the allies to do what 
we want elsewhere by our doing things with them in Europe to 
make the North Atlantic Council again the center of strategic 
discussion for NATO.
    Second, to keep a large number of American troops in 
Europe. Reducing the American troop presence unfortunately 
would send a very bad signal. And third, to do something about 
the transfer of high-technology weaponry and other things to 
Europe so we can't have interoperability.
    Now, what do we need to do? I think within the strategic 
concept--my allies will cover other aspects--three things. No 
1, don't commit NATO to a bridge too far. Do things that really 
have to be done together and people will agree to do together, 
and if need be, the United States will have to look elsewhere 
for partners.
    Second, get the NATO-Russia Council back up and running to 
try to help complete the vision of George Bush on a Europe 
whole and free. And third, the comprehensive approach. The 
military, the nonmilitary, critical in Afghanistan. For 
example, governance, reconstruction development, along with 
what's being done in the military, which the allies should do a 
tremendous amount about. A new NATO-European Union 
relationship. Break down those barriers. A new United States-
European strategic partnership, to help shape things in health, 
education, and the like.
    These are the big security issues in which we and the 
Europeans can work together, and it's my belief if we can get 
the comprehensive approach, the military and the nonmilitary 
approach right, then we will find the Europeans more willing to 
do what we need them to do in places like Afghanistan.
    Thank you very much.
    Chairman Shaheen. Thank you very much, Ambassador Hunter.
    Dr. Hamilton, would you like to continue?

STATEMENT OF DAN HAMILTON, DIRECTOR OF CENTER FOR TRANSATLANTIC 
  RELATIONS, SCHOOL OF ADVANCED INTERNATIONAL STUDIES (SAIS), 
            JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Dr. Hamilton. Thank you, Madam Chair. It's a pleasure to 
appear before you and Senator DeMint and your colleagues to 
discuss the future of NATO and its strategic direction moving 
forward. Let me also congratulate you personally on assuming 
the duties at the helm of this subcommittee.
    You asked for an assessment of the challenges facing NATO 
as it considers a new strategic concept. My testimony, which 
I'd like to submit for the record, and I'll just do an 
abbreviated verson here, draws on Alliance Reborn, a study that 
my Center completed with three other U.S. think tanks, which we 
released recently. And while I was the lead author, I do want 
to acknowledge, of course, all the contributions that those 
colleagues made. It really is a collective effort.
    I believe that the Strasbourg/Kehl summit gave us an open, 
but fleeting, moment to reposition our alliance, to confront 
the kinds of challenges we are more likely to face in the 
future than the ones we've been facing over the last number of 
years. And the strategic concept can be a vehicle in which we 
can do that.
    However, we have some immediate tests, as Ambassador Hunter 
said, particularly in Afghanistan, the Pakistan issue. I think 
there is a need to have greater Western cohesion, if you will, 
about how to deal with Russia. These are two immediate tests. 
If we cannot generate some Western cohesion there, our efforts 
to develop a strategic concept, I think, will be difficult. And 
so as we move forward strategically, we have to, of course, 
deal with the issues that we face day by day.
    And as Ambassador Hunter said, if we think about the grand 
strategic challenges we face across the Atlantic, we should 
then think, do the institutions we have really do the job? My 
answer at the moment is no. I think we have to look across the 
institutions we have that we and our European allies work 
through and look at how to revamp them and revise them for the 
future, NATO being, of course, an essential element.
    During the cold war--the peaceful resolution of which was 
NATO's greatest success--NATO never fought a day. Today, it's 
engaged in six different missions all at the same time. It's 
busier now than it ever has been, and yet, I think it's been 
hard for alliance leaders to convey what NATO is about these 
days to publics and parliaments and to funders. That high 
operational tempo has exposed differences among allies, in 
terms of strategic culture, in terms of resources, commitments, 
capabilities, and even the kinds of challenges we have to face 
together.
    So it's a problem right now. I think a new strategic 
concept can try to convey a simpler, but important, message 
about what this alliance is about for the future, rather than 
convey the impression that it's a relic of the past. But to do 
that, we have to go back to some basics. I believe NATO's 
purpose is threefold. It's the same purpose it's had for 60 
years. And I think it's fairly simple, actually, to explain.
    The first is collective defense of its members. That's the 
core mission of NATO. It's always been that. It remains 
important. The second is to be a preeminent security form 
across the Atlantic for discussion of security challenges 
together. It provides the transatlantic link that otherwise 
would not be there.
    And third, a third purpose of NATO, which I think is often 
overlooked, is that it provides reassurance to European members 
that they can devote their security energy to common security 
challenges rather than to each other. The tragedy of European 
history in the 20th century was that the Europeans were looking 
over their shoulder at each other, and often fighting each 
other, rather than trying to confront some common challenges. 
Through NATO this pattern was reversed, and the participation 
of the United States and Canada is essential to that mission.
    I believe all of those three points remain essential today, 
yet each of them is under some question today. So if NATO is to 
be bigger and not just better, it has to think of its core 
mission set. The last 15 years, we have been driven by the 
slogan, ``Out of area or out of business,'' and NATO is now 
very much out of area in the Hindu-Kush and is very much in 
business.
    But the core mission of NATO, if you asked most people, 
``What is it for?'' is it is there to protect us. This mission 
of protecting the North Atlantic space has been the core 
mission of NATO. And so while I've always supported NATO's out-
of-area transformation, I believe we must also show that we're 
working in area, back in our basic space to protect our own 
people, and that we are out of area in business, but if we're 
not in area, we'll be in trouble--in terms of how we explain to 
publics and parliaments what this NATO is about.
    So NATO, it seems to me, should be guided by a simple set 
of home missions and away missions. I think each of those is 
straightforward, but they do require some revision in terms of 
NATO efforts.
    The home missions are very straightforward. The first 
element is deterrence and defense, the core mission of NATO 
that remains enshrined in Article 5 of the North Atlantic 
Treaty, collective defense of its members. That remains 
important.
    The second home mission, I believe, should address a new 
area of security that we have to think harder about. It's not 
the traditional area of security. It has to do more with what 
one would call societal security--resilience, in the way the 
British use that term. What do cyber hackers, terrorists, 
energy cartels, maybe even pirates, have in common? Those are 
networks that prey on the networks of free societies. They are 
not trying to take our territory. They're trying to disrupt 
society in many different ways. In fact, they use the 
instruments of free societies to disrupt them.
    These are important security challenges, and yet, we're not 
equipped to cross the Atlantic to deal with those. In our 
study, we argue that NATO is not probably the lead actor in 
this area, because much of this has to do with law enforcement 
and other kinds of issues. But we have identified a number of 
specific areas in which NATO could play a supporting role in 
terms of biodefense, cyber defense, guarding the approaches to 
our space, and they're very specific, and it's an important 
role to play.
    The third area in home missions is a Europe that can be 
whole, free, and at peace. If we think about the Europe that we 
see in front of us today, core Europe, if you will, the 
Alliance Europe, it is secure. But wider Europe, the space 
between NATO and Russia, or between the EU and Russia, is 
unsettled territory: Lots of unsettled conflicts, weak states, 
fragile states, things that can really do some severe damage. 
We have to deal with that, and I think the alliance still has a 
role.
    The away missions I think are also three, and they are also 
straightforward. One is crisis prevention and response; that 
is, if we do face threats to our security at strategic 
distance, we must be able to project, and that is what the 
alliance should do. The second away mission as we see in 
Afghanistan and the Balkans, is that after conflict ends, 
security operations become quite important in reconstruction. 
The alliance has to have some capability in stabilization and 
reconstruction, working with civilian authorities.
    And third, we can stretch NATO further, and I believe we 
should, but if you stretch it too far, you will break it. And 
so NATO has to connect better with other partners to be 
multipliers for our joint capabilities. Examples include the 
EU, the U.N., the African Union, perhaps, other types of 
partners that it can work with.
    I think this balance of home missions and away missions is 
a fairly straightforward way to think about NATO that brings 
together its various elements. It gives NATO a new balance, in 
terms of what it's doing, and it offers a clearly explainable 
way to talk to our publics and parliaments about what our 
alliance is about. And I'd be happy to answer more questions 
about that.
    Thank you.


    [The prepared statement of Dr. Hamilton follows:]


              Prepared Statement of Daniel S. Hamilton \1\
---------------------------------------------------------------------------

    \1\ Daniel Hamilton is the Richard von Weizsacker Professor and 
Director of the Center for Transatlantic Relations at the Paul H. Nitze 
School of Advanced International Studies (SAIS), Johns Hopkins 
University. He is the lead author of Alliance Reborn: An Atlantic 
Compact for the 21st Century, available at http://transatlantic.sais-
jhu.edu/Publications/nato--report--final.pdf. Dr. Hamilton has served 
as U.S. Deputy Assistant Secretary of State for European Affairs; U.S. 
Special Coordinator for Southeast European Stabilization; and Associate 
Director of the Policy Planning Staff.
---------------------------------------------------------------------------
    Madame Chairwoman, it is a pleasure to appear before you and your 
colleagues to discuss the future of NATO and its strategic direction 
moving forward. Let me congratulate you personally on assuming your 
duties at the helm of the subcommittee.
    You asked for an assessment of the challenges facing NATO as it 
considers a new Strategic Concept. My testimony draws on Alliance 
Reborn: An Atlantic Compact for the 21st Century, a recent report on 
NATO's future by my Center for Transatlantic Relations together with 
the Atlantic Council of the United States, the Center for Strategic and 
International Studies (CSIS) and the Center for Technology and National 
Security Policy at the National Defense University. I was the lead 
author for the report, but want to acknowledge the many valuable 
contributions made by my colleagues.
    I begin by suggesting that today and in the future the United 
States and its allies need NATO to perform a balanced set of ``home'' 
and ``away'' missions. I then outline a number of necessary internal 
reforms the Alliance should consider.
                      nato missions: home and away
    During the Cold War, NATO never fought a day. Today, it is involved 
in six different operations--fighting and securing stability in 
Afghanistan; keeping the peace in Kosovo; assisting defense reform in 
Bosnia and Herzegovina; patrolling the Mediterranean Sea in a maritime 
anti-terrorist mission dispatched under the collective defense clause 
of the North Atlantic Treaty; countering piracy and armed robbery at 
sea off the Horn of Africa; and training Iraqi security forces. It 
launched an extensive humanitarian relief operation for Pakistan after 
the massive earthquake in 2005, helped victims of Hurricane Katrina in 
the United States, and provided security support to the 2004 and 2006 
Olympics and 2006 World Cup. It has welcomed new members, and others 
are keen to apply. Budding partnerships have been cultivated with the 
UN, the EU and nations from the Mediterranean to the Pacific.
    NATO is busier than ever. But this operational reality has exposed 
differences among allies in terms of threat perceptions, strategic 
cultures, resources and capabilities. As a result, many see an Alliance 
lacking focus, driven more by outside events than by collective 
interests. This is troubling, because the need for transatlantic 
cooperation is rising, not falling. The U.S. and its allies must create 
a new Alliance consensus on the challenges to our security and NATO's 
role in meeting them. Such a consensus is as important today as it was 
when NATO was born. The security challenges we face have changed, but 
the need for a common response has not.
    Sixty years after its founding, NATO's three-fold purpose remains: 
to provide for the collective defense of its members; to 
institutionalize the transatlantic link and serve as a preeminent forum 
in which allies can discuss issues of common security and strategy; and 
to offer an umbrella of reassurance under which European nations can 
focus their security concerns on common challenges rather than on each 
other. To meet this purpose today, each element needs urgent attention, 
and each needs more than NATO.
    If NATO is to be better, not just bigger, it must transform its 
scope and strategic rationale in ways that are understood and sustained 
by parliamentary and public opinion. It must change the nature of its 
capabilities, the way it generates and deploys its forces, the way it 
makes decisions, the way it spends money, and the way it works with 
others.
    Most importantly, NATO needs a new balance. For the past 15 years 
the Alliance has been driven by the slogan ``out of area or out of 
business.'' Threatened with irrelevance by its Cold War success, the 
alliance reached across the old East-West divide to include new members 
and new partners. It has sent soldiers and peacekeepers to trouble 
spots beyond its boundaries, from the Balkans to Afghanistan. It has 
become an expeditionary alliance.
    NATO's out-of-area transformation remains important. But a single-
minded focus on ``out of area'' risks diverting us from NATO's enduring 
``in area'' mission to protect North Atlantic nations from armed 
attack. Alliance leaders are right to say that Western security today 
begins at the Hindu Kush. But in an age of catastrophic terrorism, the 
front line tomorrow may run through Washington's metro, Frankfurt's 
airport, Rotterdam's port or Istanbul's grand bazaar.
    If NATO is visible in expeditionary missions but invisible when it 
comes to protecting our own societies, support for the alliance will 
wane. Its role will be marginalized and our security diminished. NATO 
operates out of area, and it is in business. But it must also operate 
in area, or it is in trouble. If NATO cannot protect, it cannot 
project.
    NATO today faces a related set of missions both home and away. At 
home, it is called to maintain deterrence and defense; support efforts 
to strengthen societal resilience against a host of threats to the 
transatlantic homeland; and contribute to a Europe that truly can be 
whole, free and at peace. Away, it is called to prevent and respond to 
crises; participate in stability operations; and connect better with 
partners to cover a broader range of capabilities.

                              NATO Missions
------------------------------------------------------------------------
                      Home                                 Away
------------------------------------------------------------------------
Deterrence and Defense                           Crisis Prevention and
                                                  Response
Transatlantic Resilience                         Stability Operations
EuroWhole, Free and at Peace                     Working Effectively
                                                  with Partners
------------------------------------------------------------------------

    These missions, whether close to home or far away, share five 
common requirements. All require intensive debate to sustain public and 
parliamentary support and receptivity by other partners. All require 
improved capabilities that are deployable. All require better synergy 
between NATO and partners. All require better cooperation between civil 
and military authorities. All require allies to match their means to 
agreed missions.
    This outline of NATO home and away missions does not mean that NATO 
should always take the lead. Depending on the contingency at hand, NATO 
may be called to play the leading role, be a supporting actor, or 
simply join a broader ensemble. For deterrence and defense, for 
instance, NATO remains the preeminent transatlantic institution. In all 
other areas, however, it is likely to play a supporting role or work 
within a larger network of institutions. Knowing where and when NATO 
can add value is critical to prioritization of resources and effort.

        NATO: Leading Role, Supporting Actor, or Ensemble Player?
------------------------------------------------------------------------
                  Mission                               Role
------------------------------------------------------------------------
  Home Missions
 
    Deterrence and Defense................  Lead
 
    Transatlantic Resilience..............  Support/Selective Lead
 
    Europe Whole, Free and at Peace.......  Support/Selective Lead
 
 
  Away Missions
 
    Crisis Prevention and Response........  Lead/Selective Support
 
    Stability Operations..................  Support/Selective Lead
 
    Working Effectively with Partners.....  Support/Ensemble Player
------------------------------------------------------------------------

Home Missions
    Deterrence and Defense. NATO's collective defense commitment, as 
stated in Article 5 of the North Atlantic Treaty, is the core of the 
Alliance. NATO plays an essential role in deterring and defending 
against attacks on the transatlantic homeland, from whatever source. In 
recent years the focus has been on terrorism, but since the Russian 
invasion of Georgia there has been renewed concern among some members 
about the adequacy of NATO planning and defense capabilities to deal 
with more traditional threats by aggressor states. These concerns have 
prompted some allies to entertain the need for separate bilateral 
security guarantees. A NATO that continues to expand without having the 
capabilities to meet its core obligation to defend an enlarged treaty 
area runs the risk of becoming a hollow alliance. Moreover, lack of 
confidence in NATO's ability to carry out its fundamental commitment 
risks undermining another key element of NATO's purpose--to prevent the 
kind of renationalization of European defense and conflicting security 
guarantees that led Europe to disaster in the 20th century. Therefore, 
Alliance leaders should ensure that Article 5 is not just a paper 
commitment but is backed up by credible planning to determine the 
military requirements to carry it out, as well as the means and 
political solidarity to implement it.


    To strengthen Article 5 preparedness NATO could:

   Restore the military capability of the NATO Response Force (NRF) 
        for the mission of ``first responder'' if a demonstration of 
        military force is required after Article 5 is invoked. A fully 
        capable NRF would express the commitment of Allies to meet 
        their Article 5 commitment.

   Include in the Defense Planning Process a robust scenario that 
        includes reinforcement of Allied territory. MC-161, NATO's 
        assessment of future threats, should also ensure that ``the 
        full range'' of possible threats is included.

   Exercise plans for territorial defense where appropriate along 
        NATO's periphery. Exercises should be fully transparent and 
        sized appropriately.

   Direct NATO military staffs to develop comprehensive plans for the 
        timely handover of national forces to NATO control.

   Invest in essential infrastructure in appropriate Allied nations 
        (especially in the newer Allies) to receive NATO 
        reinforcements.

   Consider infrastructure upgrades in new members in order to base 
        NATO common assets.


    Transatlantic Resilience. Alliance leaders should consider the 
meaning of their Article 5 commitment to ``ensure the security of the 
North Atlantic area'' in light of the challenges to societal security 
facing our nations today. There are limits to the role NATO can and 
should play in this area--many issues of law enforcement, domestic 
intelligence, civil security and disaster response are well beyond 
NATO's area of competence, and are better handled in national or 
bilateral channels, or in some cases between the U.S., Canada and the 
European Union (EU).
    There are some areas, however, where NATO itself, or NATO and the 
EU together, could complement other efforts and do more to enhance 
transatlantic resilience. The Alliance has already been called upon to 
help member and non-member governments with security for mass public 
events and deal with the consequences of various natural disasters. It 
could well be called upon to play a role in dealing with a catastrophic 
terrorist event, particularly one involving agents of mass destruction. 
NATO efforts to enhance societal resilience in the transatlantic 
homeland would offer the Alliance both a 21st-century approach to 
Article 5 and new meaning and credibility in the eyes of NATO publics 
who are concerned about threats close to home. Alliance leaders have 
the opportunity to articulate a strategic direction for transatlantic 
homeland defense and societal resilience in the next NATO Strategic 
Concept.
    NATO and its members already possess noteworthy capabilities in 
these areas, but their ability to act as a fully organized, capable 
alliance is not well developed. NATO will need improved physical 
assets, strengthened strategic planning and operating capacities. It 
will need to coordinate closely with national governments, many of 
which view control of societal security resources as vital 
manifestations of their sovereignty, and have diverse constitutional 
approaches to domestic uses of their military and to civil-military 
cooperation in crisis situations.
    Moreover, NATO engagement in this area will require a fundamentally 
different relationship with the EU. Among the 21 NATO allies and 5 
Partnership for Peace nations that also belong to the EU, there is 
strong support for housing within the EU a growing number of common 
European capabilities related to societal security and emergency 
response (such as customs, police cooperation, environmental security 
and information-sharing). The EU has undertaken a range of activities 
and initiatives aimed at improving its military and civilian 
capabilities and structures to respond to crises spanning both societal 
defense and societal security, including cross-border cooperation on 
consequence management after natural and manmade disasters.
    In short, NATO is likely to be a supporting player in more robust 
overall efforts at societal security in the North Atlantic space. 
Nonetheless, NATO efforts could build on promising yet modest 
developments already under way in several areas, to include:


   Guarding the approaches and enhancing border security for the NATO 
        region;

   Enhancing early-warning and air/missile defenses;

   Improving counterterrorism activities;

   Strengthening transatlantic capabilities for managing the 
        consequences of terrorist attacks (including agents of mass 
        destruction) or large-scale natural disasters;

   Cyberdefense;

   Biodefense;

   Political consultations on energy security;

   Incorporating transatlantic resilience into the Strategic Concept; 
        and

   Creating a Civil Security Committee.


    Europe Whole, Free and at Peace. NATO's third home mission should 
be to contribute to overall transatlantic efforts to consolidate 
democratic transformation on a European continent that at its broadest 
is not yet whole, free and at peace. NATO allies have an interest in 
consolidating the democratic transformation of Europe by working with 
others to extend as far as possible across the European continent the 
space of integrated security where war simply does not happen. Yet 
post-communist applicants for NATO membership are weaker than earlier 
aspirants and less well known to allied parliamentarians and publics. A 
number are beset with historical animosities and have yet to experience 
significant democratic reforms. When U.S. and European opinion leaders 
consider these countries as potential partners and allies, they will 
look closely at the nature and pace of domestic reforms and for 
evidence of a willingness and desire to resolve historic conflicts. In 
addition, Russia is opposed to further extension of NATO into the post-
Soviet space. Finally, as discussed earlier, some allies question the 
current credibility of NATO's guarantees to its own members. They worry 
that continued enlargement, without complementary efforts to bolster 
NATO defense, could simply hollow out the Alliance.
    Given these various challenges, a strategy for democratic 
transformation and collective security in the region is likely to be 
more effective if its goals are tied to conditions rather than 
institutions. Western actors should work with the states in the region 
to create conditions by which ever closer relations can be possible. 
Such an approach has the advantage of focusing effort on practical 
progress. NATO allies share an interest in promoting democratic 
governance, the rule of law, open market economies, conflict resolution 
and collective security, and secure cross-border transportation and 
energy links, regardless the institutional affiliation of countries in 
the region. The West must keep its door open to the countries of wider 
Europe. NATO governments must remain firm on the Bucharest Summit 
commitments to Georgia and Ukraine and to follow through on subsequent 
pledges of further assistance to both countries through the NATO-
Georgia and NATO-Ukraine commissions and bilateral programs in 
implementing needed political and defense reforms.
    In short, the West should be careful not to close the door to the 
countries of the region, but it should focus on creating conditions by 
which the question of integration, while controversial today, can be 
posed more positively in the future. A new focus on societal 
resilience, and transatlantic interest in ``projecting resilience 
forward'' to neighboring countries, would offer an additional means to 
engage and draw closer the nations of wider Europe in ways that 
strengthen overall transatlantic security. It could be an attractive 
mission for the Partnership for Peace.
Away Missions
    Crisis Prevention and Response. NATO's role has evolved from its 
singular Cold War focus on Article 5 defense of allied territory to a 
broader mission set that embraces non-Article 5 missions to assist the 
international community in crisis prevention and response. In some 
cases, consultations within NATO or diplomacy by NATO can help prevent 
a crisis from escalating. NATO also has a unique capability to respond 
quickly to a wide spectrum of man-made and natural crises. The NATO 
Response Force (NRF) can be used for missions requiring rapid reaction 
at strategic distance.
    If the Alliance is to continue to play an effective role in this 
area, NATO needs a deeper pool of forces that are capable, deployable 
and sustainable. Maintaining the operational effectiveness of the NRF 
is essential to NATO's credibility and should not be beyond the means 
of allied governments. Yet allies are stretched thin, and there is no 
easy fix. Either defense budgets must be increased for personnel, 
training and equipment, or spending on existing force structure, 
unnecessary command structure and bureaucracy must be re-mixed to 
prioritize deployable forces and force multipliers such as 
Intelligence, Surveillance and Reconnaissance (ISR) platforms and 
helicopters.


    Stability Operations. North American and European operations in the 
Balkans, Africa and Afghanistan have highlighted the need for lengthy, 
demanding stabilization and reconstruction (S&R) missions. As conflict 
ends, peace depends on establishing public security, essential services 
and basic governance. These tasks often fall to the military forces at 
hand before competent civilian resources can be deployed safely to take 
over. A lengthy period can then ensue where a combination of civilian 
and military forces is required to stabilize the region and lay a 
security foundation to enable the population to rebuild governance and 
a secure society. These goals require allied forces to perform 
demanding and often unfamiliar and unplanned tasks, such as fighting 
terrorists and criminal gangs, pacifying ethnic violence, restoring 
distribution of electrical power, water, food, and fuel, and rebuilding 
armies, police forces, and other institutions of governance and law 
enforcement. Sustaining such missions over time is politically and 
operationally difficult. Future requirements for such missions could be 
large.
    Although many of these capabilities exist within the EU, NATO and 
the Partnership for Peace, they are not organized into deployable 
assets. Consideration should be given to the creation of a NATO 
Stabilization and Reconstruction Force (SRF), an integrated, 
multinational security support component that would organize, train and 
equip to engage in post-conflict operations, compatible with EU 
efforts.


    Working Effectively with Partners. NATO has an interest in forging 
partnerships with others who face common security challenges. Moreover, 
in many non-European operations NATO is unlikely to operate or to 
succeed on its own; other partners are likely to want to add their 
strength to that of NATO, and NATO is likely to need partners for its 
own success. NATO efforts to train and build the capacities of others 
offer a low profile way to develop closer relations, help others cope 
with their own regional problems, and perhaps even turn them into 
partners and force contributors. Allied forces will also be better able 
to operate together, and with others, if they have trained together and 
have similar operational doctrines and procedures. NATO's patterns of 
multilateral training and joint command structures provide a firmer 
basis for shared military actions beyond Europe than any other 
framework available to the U.S. or any individual ally. Thus, NATO will 
remain a critical vehicle for ensuring interoperability between U.S. 
and European forces. Indeed, this may prove to be one of its most 
important military functions.
    Moreover, in both crisis response and stability and reconstruction 
operations, the Alliance must be able to operate closely with civilian 
reconstruction and assistance agencies. A so-called ``comprehensive 
approach'' to such operations has been developed by NATO that focuses 
on both the civilian and military challenges that come with crisis 
operations. The importance of the Comprehensive Approach was 
acknowledged by NATO in its last three Summits. The core idea is that 
the mission of restoring order and progress to damaged countries cannot 
be accomplished by military forces alone. As seen in the Balkans and 
Afghanistan, military action can secure space for civilian action in 
complex crises, but militaries can not restore societies. A combination 
of military forces and civilian assets are necessary, deployed in a 
coordinated way. Civilian functions, in turn, cannot normally be 
performed by a single institution. Instead, they must be performed by a 
multiplicity of actors, including foreign ministries, development 
agencies, the EU, partner countries outside NATO, international 
agencies such as the United Nations and OSCE, NGOs such as the Red 
Cross, and numerous civilian contractors.
    Fusing these civilian activities and blending them with ongoing S&R 
missions of military forces requires more structured relations between 
NATO, the UN, the OSCE, the EU and other established international 
actors to allow them to be more proactive in preventing future crises 
in the first place, and to work together more effectively, including 
with NGOs, in restoring peace and stability in crisis areas. NATO needs 
to retool to undertake more stability operations elsewhere in the 
world, not just focus on ways to improve its performance in 
Afghanistan. NATO's support for the African Union in Darfur, for 
instance, may be a model of global engagement for which the Alliance 
needs to prepare better.
    Not only does the strategic logic for partnerships remain 
compelling, NATO's operational effectiveness is increasingly dependent 
on such partnerships. 16 non-NATO members are involved in NATO 
operations, 15 of them in Afghanistan. NATO's array of partnership 
initiatives, however, has languished and needs greater coherence. The 
multitude of partner groups constitutes a disparate collage of good 
efforts without measures of effectiveness or mutually supporting plans 
and programs. Moreover, NATO has yet to establish a truly strategic 
partnership with the EU or a meaningful partnership with the UN or such 
institutions as the OSCE or the African Union. NATO should establish an 
Assistant Secretary General for Partnership to give direction to all 
engaged staffs.
    NATO-EU Partnership: France's re-entry into NATO's integrated 
military structure offers an important opportunity to build stronger 
NATO-EU ties. France today is the largest contributor to the NRF, and 
it participates in all major Alliance expeditionary operations, 
including Kosovo and Afghanistan. Washington should offer clear support 
for stronger European security and defense capabilities that can enable 
Europe to be a stronger partner for North America and also tackle 
security challenges on its own as appropriate.
    For the foreseeable future, NATO will remain the transatlantic 
partnership's premier military alliance for high-end defense 
requirements, including force transformation, demanding expeditionary 
missions, and major war-fighting. The EU does not aspire to such high-
end military operations, but it could help promote armaments 
cooperation, common R&D and procurement, standardization and 
interoperability, training, multinational logistics, and other 
activities in ways that conserve scarce resources and thereby benefit 
European and NATO defense preparedness.


    Various initiatives to build a sound EU-NATO relationship could 
develop:

   Institutional capabilities to enable rapid coordinated NATO-EU 
        response to crisis;

   Joint planning;

   A joint operations command in major operations where the EU and 
        NATO are both engaged, such as in Afghanistan;

   A joint force generation mechanism to request assets from both EU 
        and NATO members for a combined operation;

   A new NATO-EU partnership on WMD consequence management that 
        delineates the role of each organization in a crisis; creates 
        links between each and the WHO global health security network; 
        and develops reliable channels for rapid communication among 
        health and security officials;

   Compatible capabilities.--NATO and the EU should consider joint 
        training exercises to improve interoperability, work toward 
        common standards for unit certification, and be fully 
        transparent in planning for rotations. The EU should consider 
        making its battle groups and joint assets available for some 
        NATO forces and missions.

   A strong relationship between NATO and the EU's European Defense 
        Agency (EDA) to rationalize European procurement and facilitate 
        efforts by European governments to integrate military forces 
        and structures across national borders.

   Joint or complementary efforts to project ``forward resilience'' to 
        partners.


    NATO-UN Relations. In September 2008, after almost 60 years of 
coexistence, the UN and NATO agreed for the first time to a formal 
relationship and a framework for expanded consultation and cooperation. 
These organizations already cooperate to safeguard Kosovo's fragile 
stability and struggle together in Afghanistan. NATO protects UN food 
aid shipments to Somalia against the threat of pirate attacks. The 
United Nations has the most diverse experience with peacekeeping 
operations, yet its record is uneven. Further reform of the UN 
Department of Political Affairs and Department of Peacekeeping 
Operations is needed to better enable them to lead crisis management 
and peace support operations.
    In 1992 NATO became the first regional organization authorized by 
the Security Council to use force. The UNSC has mandated almost all 
ongoing NATO operations. It is a rare NATO operation where the UN is 
not engaged in some fashion. There are many UN operations with no EU, 
NATO or U.S. involvement. There are no EU, NATO or U.S. operations 
without some UN involvement. Despite its post-Cold War transformation, 
NATO depends on the capacities and expertise of the UN and its special 
agencies in the political, rule of law, humanitarian and development 
areas in places such as Afghanistan. If progress lacks in these fields, 
the Alliance will not be able to achieve its goals.
    The NATO-UN relationship, however, has always been ad hoc. There is 
no routine and consistent joint planning or common crisis management. 
UN humanitarian bodies and agencies are concerned that closer 
cooperation with NATO could jeopardize their neutrality and 
impartiality in conflict areas and put their staff at risk, and NATO 
nations have been reluctant to provide their troops and assets to UN 
peacekeeping missions following the UN's failure to stop violence in 
Bosnia in the early 1990s. The NATO representation at the UN in New 
York is small and unable to undertake consistently the advance planning 
needed for NATO and the UN to work together efficiently. NATO needs to 
build up its presence at the UN with additional planners to develop the 
relationships and establish a routine planning capability; the UN 
should have representation at SHAPE; and the NATO-UN agreement should 
be operationalized.


    Mediterranean Dialogue and Istanbul Cooperation Initiative (ICI). 
Allied interests in the stability and prosperity of the Mediterranean 
and the broader Middle East have increased greatly since these programs 
were first created. Alliance security depends on the stability that can 
be advanced through cooperation with these partners. NATO's engagement 
in Afghanistan and the training of Iraqi security forces have made the 
alliance more relevant to security in the broader Middle East. NATO's 
role could grow should the Alliance be called upon to provide forces to 
implement any future Palestinian-Israeli settlement--however unlikely 
such an accord appears to be at present. NATO, the Gulf States, and 
others in the region are also concerned about the implications of 
Iran's nuclear activities and missile programs, and have common 
interests in energy security. At the Riga Summit, NATO governments 
launched a Training Cooperation Initiative to expand participation by 
Middle East partners and to explore joint establishment of a security 
cooperation center in the region. Unfortunately, not much has come from 
this initiative. It should be re-energized so that NATO can share its 
expertise in training military forces to help partners build forces 
that are interoperable with those of Allies. ICI countries and NATO 
need to define future priorities, which might include combined 
peacekeeping operations, cooperation on crisis management and missile 
defense. The Alliance also needs a better public diplomacy strategy for 
the region.


    Global Partnerships. In the process of taking on emerging global 
challenges, NATO must deepen partnerships globally. Since 2001, NATO 
has undertaken operational military cooperation with countries beyond 
Europe's periphery to counter terrorism and promote stability. 
Australia, New Zealand, Japan, and South Korea have either worked with 
the Alliance in Afghanistan or supported stabilization efforts in Iraq. 
The development of these relationships reflects NATO's need for a wider 
circle of partners to respond to complex global threats. At the Riga 
and Bucharest Summits, allies recognized the value of global 
partnerships with countries that share our values. There has been real 
progress in building political dialogue and developing individual 
Tailored Cooperation Packages. Given that some of these countries are 
now offering to intensify their cooperation and to provide troops or 
civilian resources to NATO operations, they need to be accommodated 
through closer political and military ties.


    NATO needs to:

   Facilitate routine political consultations;

   Better integrate partner armed forces into the planning and conduct 
        of those NATO-led operations where partners elect to 
        participate;

   Improve partner interoperability with NATO forces; and

   Intensify its political dialogue with other major players, notably 
        China, India and Pakistan.
                         internal nato reforms
    In addition to capacities tailored to specific missions, reforms 
are required in areas that cut across the mission spectrum. NATO should 
change the way it makes decisions; change the way it spends money; 
generate appropriate military capabilities; and match missions to 
means.
Change the Way NATO Makes Decisions
    Modify the Consensus Rule. NATO decision making at every level of 
the Alliance has been governed by the consensus rule; all decisions, 
large or small, are unanimous. While this is an important symbol of 
unity, especially when the NAC votes to deploy forces, the consensus 
rule also allows one nation to block the wishes of all others and also 
leads to lowest-common-denominator decisions. It is time for a thorough 
review, with an eye towards consensus decision-making only taking place 
in the NAC and in budget committees, or perhaps only on certain 
decisions, such as deploying forces or spending money. Qualified 
majority voting, or upholding a simple majority, have each been 
suggested as alternatives, especially in committees lower than the NAC. 
Another important reform worth considering is allowing nations to opt 
out of participating in an operation (even after joining consensus in 
the NAC to approve an operation). In such a case, the opt-out nation 
would not bear the cost of an operation, but also would not participate 
in decision-making on how that operation is executed.


    Merge NATO's Civilian and Military Staffs. The International Staff 
and International Military Staff (IS/IMS) are the backbone of NATO HQ, 
fulfilling many important day-to-day functions to support decision-
making in the NAC and the Military Committee. However, both staffs have 
hardened into bureaucratic stovepipes, often performing duplicative 
functions and working in an uncoordinated fashion that undercuts 
efficiency. While both staffs should be reviewed by an outside working 
group to determine how they might be reorganized, a reform that could 
be undertaken now is to increase the integration of the staffs at NATO 
HQ, which was begun on an experimental basis a few years ago. Such a 
mix of civilian and military staffs is key to implementing the 
``comprehensive approach.''


    Revamp the NATO Military Committee (MC). In the past, the Military 
Committee played an important role in providing military advice to the 
NAC and in providing guidance to the Strategic Commands. However, in 
recent years the MC has been used as an arena to fight political 
battles better fought elsewhere, undercutting the MC's credibility. 
Today, many question whether the MC is the best source for unbiased 
military advice and whether it has been effective in motivating nations 
to improve military capabilities and force generation. The MC's role, 
mission and processes should be closely reviewed.


    Review Defense Acquisition. The creation of the EU's European 
Defense Agency (EDA) provides the potential for cooperation with NATO's 
Conference of National Armament Directors (CNAD). Both institutions 
share the same capability shortfalls and lack of political will by 
their members to increase defense budgets or otherwise improve 
capabilities. While there is a NATO-EU Working Group on Capabilities, 
cooperation is largely sterile. The role of the CNAD should be reviewed 
carefully by an outside group made up of industry and acquisition 
officials to determine if NATO acquisition procedures should be 
revamped, and to look for ways that the EU and NATO could cooperate in 
meeting common capability shortfalls more efficiently.


    Streamline the Command Structure. The NATO command structure is in 
a perpetual state of reform, and has transformed from the complex 
organization of the Cold War to a configuration more suitable for 
expeditionary operations outside the NATO region. However, as NATO 
evolves, so must its command structure, and there is still some 
unfinished business.


    One criticism is that SHAPE, despite being a strategic command, 
still has too much operational control that should belong to the 
commander in the field. SHAPE should remain principally a strategic 
level command.
    Second, NATO headquarters are not standard, often complex and at 
times incomprehensible. Command relationships can hamper rather than 
facilitate command. Most of the NATO command structure is still 
undeployable, necessitating the creation of ad hoc headquarters to 
serve as KFOR and ISAF, while large staffs sit almost idle at fixed 
locations in Europe.
    Finally, the role of Allied Command Transformation (ACT) as an 
``engine for transformation'' is also under the microscope. ACT is 
criticized as having a weak impact on transformation, failing to have 
acquisition authority, and lacking credibility at NATO Headquarters. 
Some have always been concerned that the current arrangement--a dual-
hatted supreme commander as head of both ACT and U.S. Joint Forces 
Command (JFCOM)--may not give that commander the time needed to devote 
to the difficult transformation task at NATO.
    With these perspectives in mind consideration should be given to a 
reorganized and reoriented three-level command structure.
    The strategic level is Allied Command Operations (ACO) commanded by 
the Supreme Allied Commander Europe (SACEUR) who should remain an 
American; and Allied Command Transformation (ACT) with a European 
Supreme Commander and two Deputies, one in charge of defense planning 
and acquisition and the other a U.S. deputy dual-hatted as the Deputy 
USJFCOM in charge of transformation. ACT's duties would also include 
developing doctrine and training for the comprehensive approach, 
transatlantic resilience and defense, including the Atlantic 
approaches, and with an element at USNORTHCOM to support that mission.
    The second level should be operational and comprised of three JFC 
headquarters in Brunssum, the Netherlands; Naples, Italy; and Lisbon, 
Portugal. Each JFC headquarters should have a geographic and functional 
focus. JFC Lisbon's geographic focus should be on the Mediterranean Sea 
and Africa, and its functional priority should be NATO-EU 
collaboration. JFC Brunssum should focus on southwest Asia/broader 
Middle East as a geographic priority and the reappearance of a 
conventional threat as a functional priority. JFC Naples should focus 
on southeastern Europe and transatlantic resilience. Each JFC should be 
able to deploy a robust Joint Task Force, and there should be at least 
two Combined Air Operations Centers (CAOC) with a deployable CAOC 
capability. JFCs must be capable of operational oversight of multiple 
missions. All JFCs must be capable of backing one another, and must 
plan and exercise for Article 5 missions.
    The third level of the NATO Command Structure should be comprised 
of three joint deployable HQs that deploy to the mission area to 
conduct operations (e.g. KFOR and ISAF). These HQs would replace most 
or all of the current 6 fixed component commands (2 air, 2 land and 2 
maritime). If required, the three deployable HQs could be supplemented 
by the High Readiness HQs already in existence in some allied nations 
or other HQs at lower readiness.
Change the Way NATO Spends Money
    The way NATO spends money for operations and infrastructure is 
opaque, complicated and does not go far enough to lessen the financial 
burden on nations deploying on missions. Changes are needed to improve 
financial efficiency, increase military capability and cover costs that 
otherwise give nations an excuse not to deploy on operations. Because 
additional common funding contributions will not come easily from 
nations, greater effort must be made to re-direct spending of common 
funds from political and military bureaucratic structure to improving 
deployability and capabilities. This is routinely done through such 
mechanisms as Peacetime Establishment reviews, but they have not 
produced the needed results. The financial crisis makes it imperative 
for NATO to develop a new approach to funding operations and common 
equipment:


   Cost-share operations. Although wealthier allies feel they already 
        pay too much into common funds and do not feel it is fair for 
        them to increase their contributions to common funding, poorer 
        allies often cannot cover costs to deploy on missions. If 
        wealthier nations do not contribute more to common funds, fewer 
        allies will participate in Alliance missions.

   Increase and broaden the use of common funds to procure common 
        equipment for operations. While the Alliance has increased the 
        use of common funds to procure common equipment for operations, 
        such use is often blocked by some nations who ``do not want to 
        pay for a capability twice.'' Such a short-sighted view makes 
        it easy for some nations to avoid shouldering the burden by 
        pleading poverty. NATO military authorities should suggest 
        additional equipment that NATO could purchase and make 
        available to nations and so make it easier for them to deploy.

   Coordinate equipment procurement with the EU. This has the 
        potential for the greatest efficiency, but is the hardest to 
        implement. Both NATO and the EU share common capability 
        shortfalls that could be met more efficiently if those 
        shortfalls are met in a common procurement. Much of such 
        cooperation has been stalled by political issues, industrial 
        base issues, as well as by the sheer complexity that comes with 
        common procurement by nations. Most efforts, even on a small 
        scale, have failed miserably in the past. However, a new 
        approach at cooperative procurement should be considered by a 
        working group that includes representatives of transatlantic 
        industry.
Generate Appropriate Military Capabilities
    NATO must generate the appropriate capabilities to meet its 
missions. Without credible capabilities, strategic concepts, treaty 
guarantees and summit declarations mean little to allies or those who 
would confront them. NATO credibility rests on a demonstrable 
capability for timely military response to threats to any member's 
territory. Credibility also requires the capabilities to carry out 
other missions that allies have agreed. Every NATO Strategic Concept 
has had at its core clear guidance on required military capabilities. A 
new Concept will have to address the increasing demand for usable 
capabilities alongside the reality that available resources will 
contract. NATO militaries need considerable further restructuring to 
achieve far more availability of resources. NATO itself needs greater 
efficiencies and better business practices.
Capabilities for Article 5 and non-Article 5 missions
    A. Deployable Conventional Forces. Forces that cannot deploy are of 
almost no use for Alliance missions. About 70 percent of European land 
forces cannot deploy, due either to obsolete equipment, lack of 
mobility assets, reliance on fixed logistics, or a lack of plans or 
training for movement operations. Troop rotations mean that 30 percent 
of forces that are deployable yield no more than 10 percent sustained 
mission support. With a force almost half a million smaller, the U.S. 
deploys well over twice as many troops as Europe.
          1. Major Combat Forces. Not only light forces must be 
        deployable. Heavy armored forces that would anchor land defense 
        of the Alliance must be deployable, strategically and 
        operationally by aircraft, ship, rail or road. NATO boundaries 
        are hundreds, often thousands of kilometers from where forces 
        are located in the heart of Europe. Article 5 credibility is 
        eroded by the absence of plans and assets for forces to get 
        where they may be needed.
        2. Intervention Forces. The focus today is on Afghanistan, as 
        it must be, and on Kosovo, where security remains tense. These 
        interventions strain allied forces because the reservoir of 
        deployable lighter forces for non-Article 5 missions is just as 
        inadequate as for Article 5 missions. In Afghanistan national 
        caveats by some allies increase the demands on the forces of 
        those allies without caveats. Rotational schemes, essential to 
        long operations by volunteer militaries, exponentially increase 
        force requirements. Europe has 1.3 million non-conscript land 
        forces, yet in 2007 was only able to muster on average 
        deployment of less than 80,000 for all operations--NATO, EU and 
        national. As in the case of heavy armor, many lighter forces 
        needed in Kosovo and Afghanistan are simply undeployable and 
        therefore unavailable.
          3. The NATO Response Force (NRF). The NRF is the most visible 
        example of the shortage of ready, available forces, especially 
        to meet Article 5 missions. Yet for many reasons allies are 
        reluctant to meet force requirements. As a result, it has been 
        scaled back both in terms of capabilities and mission. Although 
        the NRF is intended to be NATO's most prominent response 
        capability, pressure has been needed from the start to fill the 
        modest NRF requirements of 25,000 combined land, air and naval 
        forces, especially a brigade of land forces representing just 
        2,000-3,000. For example, in late 2008, just two months prior 
        to its mission window, the 13th rotation of the NATO Response 
        Force was reported to be at only 26% fill for land forces with 
        no commitments for helicopters or logistics. Shortfalls are due 
        to the demands of meeting troop requests for current 
        operations, particularly ISAF in Afghanistan, and many forces 
        are simply unusable. The NRF must be kept robust and able for 
        an array of missions, including disaster assistance and 
        humanitarian relief.
          4. Special Operations Forces and Stabilization Forces. 
        Conflict regions like Afghanistan are inherently complex, with 
        warfare and stability operations inextricably intertwined. 
        Forces must understand their environment be able to work with a 
        host of partners. Short tours frustrate continuity among 
        multinational forces through turnover rates that destroy 
        institutional memory and expertise. Tours of at least 6 months 
        should be the norm. All allies maintain small contingents of 
        Special Operations Forces (SOF) as well as the military police, 
        engineering, civil affairs (CA)/civil-military (CIMIC), and 
        medical units that are most needed to conduct stabilization or 
        crisis response operations. However these types of forces are 
        inadequate in number relative to the long nature of such 
        operations.
    B. Commonly Funded Force Enablers. Three critical sets of force 
enablers or multipliers should be approved by NATO for common funding 
under the NATO Security Investment Program (NSIP) or under the Military 
Budget, as appropriate. These enablers are too costly yet too critical 
to continue to depend primarily on national means. The dire result of 
that policy can be seen in ISAF shortfalls today.
          1. Strategic and Theater Lift. Including sealift and airlift 
        as well as land movement to Alliance borders, is essential to 
        respond to Article 5 indications and warnings as well as to 
        crises well beyond NATO territory. While the Alliance has 
        organized its sealift capabilities, some sealift capabilities 
        should be NATO funded. Some airlift capabilities, including 
        aerial refueling, should also be NATO funded. Strategic 
        response requires mobility planning, training and exercises. 
        Airfields and ports should be surveyed and upgraded to handle 
        appropriate vessels/aircraft and numbers of movements.
          2. Network Enabled Command, Control and Communications (C3). 
        Communications and information systems are incompatible across 
        NATO forces at the operational and tactical levels, and far too 
        much of both NATO and national network systems (especially U.S. 
        systems) remain non-interoperable.
          3. Interoperable Intelligence, Surveillance and 
        Reconnaissance (ISR). National capabilities span a wide, 
        disparate range, and system incompatibility is far more common 
        than synchronous systems. There must be greater willingness to 
        share information across multinational elements. Procedural 
        obstacles--especially in the U.S.--are more daunting than 
        technological ones. Common-owned and -funded systems would help 
        to solve these problems.
          If the Alliance is to be serious about common funding and 
        procurement, the U.S. must modify its technology transfer 
        procedures and the ``Buy American'' policy with respect to its 
        closest allies.
    C. Missile Defense. Missile defense of both territory and deployed 
forces has emerged as a potentially important requirement for future 
deterrence against missile threats from Iran and possibly other 
countries. Should diplomacy succeed in stopping Iranian acquisition of 
nuclear weapons, interceptor deployment may not be necessary. Yet 
current U.S. and allied efforts should continue now for two reasons. 
First, such efforts are prudent given the lead time necessary for 
deployment. Second, should diplomacy fail and Tehran acquire nuclear 
weapons capability, a defensive response is likely to be a more 
palatable and effective option than an offensive military response. As 
NATO moves forward, it should seek to put missile defenses in place 
without rupture to NATO-Russia relations. At the Strasbourg/Kehl 
Summit, Alliance leaders committed to engage with Russia on missile 
defense issues. The Alliance also needs to follow through on its 2008 
Bucharest Summit commitments to explore how the planned U.S. missile 
defense sites in Europe could be integrated into current NATO plans and 
to develop options for a comprehensive missile defense architecture to 
extend coverage to all Allied territory and populations not otherwise 
covered by the U.S. system.
    D. Nuclear Forces. None of these considerations contradict 
initiatives such as Global Zero. Yet when it comes to practical 
implementation, it is important to keep in mind that historically, the 
presence of U.S. nuclear weapons in Europe has been a preeminent symbol 
coupling European and North American security. For this reason, a 
unilateral U.S. decision to withdraw its nuclear weapons could be seen 
in Europe as a U.S. effort to decouple its security from that of its 
allies and thus question the very premise of the Atlantic Alliance. If 
such a step is to be considered, therefore, the initiative should come 
from Europe. If European allies are confident that European and North 
American security is sufficiently coupled without the presence of U.S. 
nuclear weapons in Europe, the U.S. is unlikely to object to their 
removal. Alliance discussion of NATO's choices should be framed by the 
following:

   Careful consideration of future requirements in terms of theater 
        nuclear delivery capabilities, i.e., the appropriate number of 
        dual capable aircraft (DCA) and the number of devices to be 
        prudently associated with them.

   Close and reflective negotiations among all allies, especially 
        those who store these weapons. Allies should keep in mind that 
        once withdrawn, it will be all but impossible politically to 
        return them. Redeployment in time of tension would readily be 
        seen as an act of war.

   If reductions or even elimination is considered, NATO needs a 
        strategy for negotiating an equivalent reduction by Russia, the 
        other holder of such weapons.
Match Missions to Means
    A vision without resources is a hallucination. And yet the gap 
between the missions NATO is called to take on and the means it has to 
perform them is growing day by day.
    NATO has tried the full array of incentives and mechanisms to 
encourage its members to maintain sufficient levels of ready forces and 
defense investment. In each case, the initiative fell short--sometimes 
very short--of agreed goals. Moreover, we are in the midst of a deep 
economic crisis of indeterminate length. For these reasons, NATO cannot 
expect any growth in resource availability. The opposite is more 
likely--declining defense resources on both sides of the Atlantic over 
a sustained period.
    The only source of greater capability in the near term is to 
improve what is already on hand. That requires members to generate 
economies within current defense budgets. The Alliance needs to make a 
number of major changes:


   Reconsider NATO's ambition of two large and six small operations 
        simultaneously, which it cannot fulfill for at least 10 years, 
        and is not attuned to the mission set I have advanced here.

   Increase the usability of NATO's 12,500 person formal command 
        structure, none of which is deployable.16

   Look for capabilities where the pooling of assets by some members 
        can be agreed, such as the C-17 airlift initiative among 12 
        members and partners.

   Reorganize where practical into multinational units comprised of 
        national component forces or even national niche forces.

   Expand civilian capabilities available to NATO by energizing and 
        implementing the Comprehensive Approach.

   Renew emphasis on consolidating R&D investment and sharing 
        technologies.

   Look earnestly at collective procurement or contracting for 
        transport helicopters; intelligence, surveillance and 
        reconnaissance (ISR) assets; and centralized logistics, along 
        the lines of the consortium purchase of strategic airlift by a 
        group of NATO members described above.

   Redouble efforts to shift spending away from personnel and 
        infrastructure costs in national defense budgets, and towards 
        investment, training, and readiness. The goal is smaller, 
        better equipped, more deployable forces.

   Bolster Alliance capacities to support member states' national 
        efforts to safeguard against cyber attacks from whatever 
        source.

   Put teeth in NATOs ``Peacetime Establishment'' (PE) Review to save 
        military budget funds by cutting static command structure or 
        cost-sharing with other institutions NATO's Cold War era 
        research facilities.
                               conclusion
    Taken together, these reforms promise to reinforce each element of 
NATO's enduring purpose, while repositioning the Alliance within a 
broader, reinvigorated Atlantic partnership that is more capable of 
responding to the opportunities and challenges of the new world rising.
    To succeed in this new world, Europeans and Americans must define 
their partnership in terms of common security rather than just common 
defense, at home and away. This will require the Alliance to stretch. 
Depending on the contingency at hand, NATO may be called to play the 
leading role, be a supporting actor, or simply join a broader ensemble. 
Even so, NATO alone--no matter how resilient--simply cannot stretch far 
enough to tackle the full range of challenges facing the Euro-Atlantic 
community. It must also be able to connect and work better with others, 
whether they are nations or international governmental or non-
governmental organizations. And if NATO is to both stretch and connect, 
it will need to generate better expeditionary capabilities and change 
the way it does business.
    At the April NATO Summit, Alliance leaders tasked work on a new 
Strategic Concept, to be presented at the 2010 Summit in Portugal. I 
respectfully suggest that this process take account of the many ideas 
advanced in Alliance Reborn and in this testimony.
    Such an effort is likely to be moot, however, if Europe and North 
America are unable to quell the threat emanating from the Afghan-
Pakistani borderlands, or to develop a common approach to Russia. The 
trick is to combine the urgent with the important, to forge the 
consensus needed to tackle current challenges while keeping the longer 
term health of our Alliance in mind.
    Madame Chairwoman, thank you for allowing me to present my 
perspectives here today.


    Chairman Shaheen. Thank you.
    Mr. Wilson.

   STATEMENT OF DAMON WILSON, DIRECTOR OF THE INTERNATIONAL 
 SECURITY PROGRAM, THE ATLANTIC COUNCIL OF THE UNITED STATES, 
                         WASHINGTON, DC

    Mr. Wilson. Thank you. Madam Chair, Senator DeMint, Senator 
Kaufman, I'm honored to join my distinguished colleagues today 
to speak before your committee about the future of our Atlantic 
Alliance. I'm particularly pleased to be here as someone raised 
in Charleston, SC, and who summered on the Connecticut River 
Valley between New Hampshire and Vermont on the family farm.
    On September 11, 2001, I was in the office of then-NATO 
Secretary General Lord Robertson, watching in horror as America 
was attacked. At first, we felt helpless, but we quickly went 
to work on how NATO could help.
    The next day, NATO invoked article 5 of the North Atlantic 
Treaty and endorsed a package of support to the United States. 
After a history of hair-trigger alert, it was terrorists, 
rather than Soviets, that triggered NATO's collective defense 
guarantee.
    This experience and its aftermath taught me three lessons: 
One, the tremendous goodwill of America's allies in times of 
crisis; second, the limited capability of NATO to respond to 
new threats; and third, the limited ability of the United 
States to integrate allied assistance into U.S. military 
planning.
    Each of these lessons is relevant today. First, that 
reservoir of goodwill needs to be nurtured and turned into 
political will within the alliance. Allied leaders must 
advocate the alliance and partnership with the United States to 
their publics in order to sustain support, especially for the 
fight in Afghanistan.
    Second, since 9/11, NATO has transformed its st 
capabilities to face 21 century threats, but the alliance lags 
behind the evolution of the threat. Third, NATO is the United 
States permanent coalition. Working with allies is cumbersome, 
but when American soldiers, sailors, and airmen enter the 
fight, it's a political imperative that they do so with allies 
by their side.
    We, therefore, shouldn't just lament the complexities of 
coalition operations, but rather, focus on improving them. And 
NATO often should be the organizing core around which broader 
coalitions are built, as the alliance offers an increasingly 
international standard of interoperability and command. 
Stitching coalitions together is unwieldy for the Pentagon, but 
it's what NATO's military headquarters at SHAPE is designed to 
do.
    Today, NATO faces questions both of common vision and 
political will as it struggles with how to develop the 
capabilities required to deter or win conflicts, how to 
integrate Europe's East, and how to succeed in Afghanistan.
    Last month's 60 anniversary summit called for a new 
strategic concept to answer these questions and to serve as a 
roadmap for NATO in the coming years. As this debate begins, I 
think the alliance should focus on three key missions: First, 
to ensure the collective defense of its members from all forms 
of attack; to complete the vision of a Europe whole, free, and 
at peace; and to serve as a leading vehicle through which North 
America and Europe act to promote security, prosperity, and 
democracy around the world, these last two roles in partnership 
with the European Union.
    I agree with Dr. Hamilton that NATO is first and foremost a 
collective defense alliance, and this solemn commitment should 
remain the bedrock. NATO is right to begin quiet and prudent 
contingency planning for responding to an attack on a member 
state, whether by a conventional or unconventional means. This 
should be NATO's routine private business.
    But this also means developing the capabilities to defend 
security at home and at strategic distances. Expeditionary 
capabilities and sustainment are just as important for a crisis 
in Europe's East as they are for Afghanistan. The alliance must 
do better developing defenses against due threats, like cyber 
warfare, biowarfare, and missile strikes. Furthermore, creative 
work is required to ensure continued NATO and nuclear deterrent 
without depending on the current antiquated force structure.
    NATO should continue to be an engine for foreign and 
fragile European democracies by maintaining a credible open-
door policy and by being an active partner in assisting those 
reforms. Enlargement has neither burdened NATO with costs nor 
complicated region consensus. Growth in membership does merit 
strengthening the authorities of the Secretary General and 
streamlining the committee structure, but the real challenge is 
keeping the open-door commitment credible.
    There is a common vision that as Bulkan nations implement 
reforms, they will earn a place within the Euro-Atlantic 
institutions. If there is no clear path to deliver on this 
vision, there needs to be one.
    Some believe it's time to put Georgia and Ukraine on the 
back burner. This approach risks backsliding in Tbilisi and 
Kyiv and caters to Russia's temptation to pursue a sphere of 
influence.
    Given the caution in Europe, American leadership is 
required to ensure the NATO-Ukraine and NATO-Georgia 
commissions do not languish. This engagement need not be 
delayed by a false debate about membership, which is many years 
away in the best of circumstances. Rather, our efforts should 
focus on using the commission's bilateral efforts, the EU's 
Eastern Partnership to bolster Democratic institutions, free 
markets, and defense reform. But without the vision of where 
tough reforms lead, political support for such reforms may 
thin.
    The key challenge to a Europe whole and free is Russia's 
place in it. The NATO-Russia Council itself is not a flawed 
institution meriting a new European security architecture. 
Rather, Russia's trajectory has undermined the promise of that 
partnership. But increasingly, the focus of the U.S. 
relationship with Europe is not Europe itself, but our global 
challenges.
    NATO accordingly should be a leading vehicle through which 
Europe and North America act globally, and this means ensuring 
we have an alliance prepared to lead new missions, whether 
supporting an African Union mission, humanitarian operation, or 
even an eventual peace deal in the Middle East.
    NATO's track record with the Partnership for Peace is a 
good basis upon which to strengthen ties to other global 
partners, such as Australia, South Korea, and Japan. We should 
even at some point consider alliances with the alliance with 
those that share our values and interests and contribute to our 
security.
    I'd like to make just a brief word on European defense and 
France's return to the integrated military command. President 
Sarkozy's election represented the victory of a vision of a 
strong France in partnership with the United States, rather 
than a France defined in opposition to the United States. But 
the challenge we face is to ensure that this French strategic 
perspective endures beyond the presidency of Sarkozy.
    We can reap these benefits by helping France succeed within 
NATO, and ensuring European defense reinforces NATO. This means 
investing France in NATO's success so that Paris no longer 
limits NATO for ideological reasons. It means harnessing a 
serious French military in support of creating serious alliance 
capabilities, and restoring as the default for cooperation 
between NATO and the EU the Berlin Plus arrangements to avoid 
the potential for future duplication.
    President Obama's first NATO summit demonstrated that our 
allies will often not meet our expectations. But NATO is the 
institution through which we and like-minded partners can 
organize our allies to do more. NATO has been repeatedly 
challenged by policymakers and pundits, and also tyrants and 
terrorists. And repeatedly, the alliance has overcome obstacles 
as it's gathered the political will to reinvent itself. It 
faces another such test over the coming year, and the United 
States should be a full partner with our allies in helping it 
pass that test.
    Thank you, Madam Chair.


    [The prepared statement of Mr. Wilson follows:]


                   Prepared Statement of Damon Wilson

    Madame Chairwoman, ranking member, members of the committee, I am 
honored to be asked to speak about the future of our Atlantic Alliance 
before your committee today. I am also delighted to join some of my 
closest colleagues and friends on this panel.
    The Atlantic Council of the United States promotes constructive 
U.S. leadership and engagement in international affairs based on the 
central role of the Atlantic community in meeting the international 
challenges of the 21st century. But we cannot advance that mission 
without taking a critical view of NATO. It is only with such a critique 
that we ensure that we are working with our partners to strengthen our 
Alliance.
    Since the end of the Cold War, the role of NATO has been repeatedly 
challenged by policy-makers and pundits, but also tyrants and 
terrorists. And despite the criticism and challenges, or perhaps 
because of them, the Alliance has overcome obstacles and grown more 
vibrant as it has gathered the political will to reinvent itself. 
Today, again, the Alliance faces a question of common vision and 
political will as it struggles with how to integrate Europe's east, how 
to succeed in Afghanistan, and how to develop the capabilities required 
to deter or win future conflicts.
    My views of the Alliance are shaped by my experiences with NATO, 
whether as a State Department official helping to organize the 50th 
anniversary Washington summit in the midst of preparing for the air 
campaign in Kosovo, or as a NATO international staff member in Kabul to 
mark the first change of command to a NATO-led International Security 
Assistance Force.
    On September 11, 2001, I was at NATO Headquarters in the office of 
then-Secretary General Lord Robertson watching in horror as America was 
attacked. My first sentiments were one of helplessness. But then we 
went to work thinking through how NATO could help. On September 12, 
NATO invoked Article 5 of the North Atlantic Treaty and endorsed a 
package of measures to support the United States. After a history of 
hair-trigger alert, it was terrorists rather than Soviets that 
triggered NATO's collective defense guarantees.
    This experience and its aftermath taught me three lessons which 
inform my views on the Alliance:


   The tremendous goodwill of America's allies in times of crisis;

   The limited capability of the Alliance to respond to a new type of 
        threat; and

   The limited ability of the United States to integrate Allied 
        assistance into U.S. military planning.


    Each of these lessons is relevant today.
    First, that reservoir of goodwill needs to be nurtured and turned 
into political will. Allied leaders must be prepared to advocate the 
Alliance and partnership with the United States to their publics, 
especially the fight in Afghanistan which is an Article 5 operation.
    Second, since 9/11, the Alliance has accelerated an agenda to 
transform its capabilities to ensure NATO is prepared for 21st century 
threats, but the Alliance as a whole lags behind the evolution of the 
threats.
    Third, the United Sates needs to remember that NATO remains its 
permanent coalition. Many critics argue that working with our allies 
militarily is too complicated and time-consuming with too little impact 
to merit the investment. I believe it is a political imperative that 
when American soldiers, sailors and airmen enter the fight, that they 
do so with allies. We should recognize that NATO is our permanent 
coalition, NATO allies will almost always form the core of any military 
coalition, and NATO can set the standards for interoperability with any 
international partner. Therefore, we should not waste time complaining 
about the complexities of coalition operations, but rather focus on how 
to improve them. After all, SHAPE exists to integrate many national 
contributions into a coherent military force. We need to use the 
Alliance structures we have invested in.
    Last month's 60th anniversary summit launched the drafting of a new 
Strategic Concept which will serve as the roadmap for the Alliance in 
the coming years. As this debate begins, in my view, we should focus 
the future role of the NATO Alliance on three key missions:


   To ensure the collective defense of its members from all forms of 
        attack;

   To complete the vision of a Europe whole, free and at peace; this 
        means NATO should continue to be an engine of reform in fragile 
        European democracies by maintaining a credible ``open door'' 
        policy and by being an active partner in assisting those 
        reforms; and

   To serve as a leading vehicle through which North America and 
        Europe work together to promote security, prosperity and 
        democracy around the world.


    This first role is the unique core of the Alliance. The last two 
roles should be pursued by both NATO and the U.S.-EU partnership.
    NATO is first and foremost a collective defense alliance. This 
solemn commitment is the bedrock of the Alliance, and should remain so.
    Russia's invasion of Georgia raised questions about whether the 
Article 5 commitment remains credible. While the most likely attack on 
an ally will originate from a computer, virus or ballistic missile, all 
NATO allies deserve to know that military planning backs up the Article 
5 commitment. NATO is right to begin quiet, prudent and routine 
contingency planning for responding to an attack on a member state, 
whether by conventional or unconventional means. This should be NATO's 
routine, private business.
    But this also means developing the right capabilities to defend the 
homeland. Expeditionary capabilities and sustainment are just as 
important for Portuguese, Dutch or Canadian reinforcements to an 
imaginary crisis in Europe's east as they are for Allied contributions 
in Afghanistan. The Alliance must also do better developing doctrine 
and defenses against new threats, like cyberwarfare, biowarfare and 
missile strikes. NATO has made significant progress on cyber and 
biodefense in recent years, but the Alliance should be on the cutting 
edge rather than playing catch up. Similarly, NATO's theater missile 
defense efforts have dragged on for years, and European and U.S. 
ambivalence has kept NATO from being a full partner in broader 
ballistic missile defense efforts important to Allied security over the 
long-run.
    NATO nuclear policy has traditionally underpinned the collective 
defense guarantee. The twin pressures of an aging, impractical arsenal 
stationed in Europe and the vision outlined in President Obama's speech 
in Prague mean the future of NATO nuclear policy is in doubt. Creative 
work is required to ensure a continued Alliance deterrent without 
depending on the current force structure.
    NATO's open door policy has meant that the Alliance has remained 
open to all European democracies which share the values of the 
Alliance, which are willing and able to assume the responsibilities and 
obligations of membership, and whose inclusion can contribute to common 
security and stability. Alliance leaders at Strasbourg-Kehl endorsed 
this policy, but despite this rhetorical support, the challenge is 
keeping this commitment credible as the Alliance grapples with how to 
integrate a restless Balkans, as well as the controversial cases of 
Georgia and Ukraine.
    Some continue to challenge the enlargement process as a weakening 
of the Alliance. I would argue that many of the newest members have 
demonstrated greater political will to commit their scarce resources to 
Alliance operations and to take tough decisions in the North Atlantic 
Council. Furthermore, the fears of increased costs or difficulty with 
consensus did not materialize as more nations joined. Achieving 
consensus within the North Atlantic Council depends more on our 
diplomacy with Paris, Berlin, Ankara or Athens than it ever will 
Tirana, Bucharest, Zagreb or Prague.
    There is a common vision among allies that as the nations of the 
Balkans implement reforms, they will earn a place within Euro-Atlantic 
institutions. Yet there is no clear path to deliver on this vision. The 
European Union has a leading role to play, but may fail to play its 
part without prodding from American diplomacy. We need to help the 
Greeks and Macedonians settle their differences, foster serious reform 
efforts in Bosnia and Montenegro, and lay the groundwork for closer 
ties with and ultimately between Serbia and Kosovo. The success of 
Albania and Croatia within the Alliance is also important to reinforce 
the demonstration effect--that is, the prospect of membership serving 
as a magnet and a driver of change in their Balkan neighbors. Just as 
NATO and the EU helped heal the great divisions between neighbors 
elsewhere in Europe, they should do so decisively in the Balkans in the 
next decade.
    After the tensions at last year's Bucharest Summit and the Russian-
Georgian war, some believe it is time to put the issues of Georgia and 
Ukraine on the back burner. I believe that is a recipe for disaster, 
risking backsliding in Tbilisi and Kyiv and catering to Russia's 
temptation to pursue a sphere of influence. Given the caution in Europe 
today, American leadership is required to ensure the NATO-Ukraine and 
NATO-Georgia Commissions do not languish. Fragile European democracies 
merit strong Western support as they struggle to determine their own 
futures. This engagement need not be delayed by a false debate about 
NATO membership, which is many, many years away in the best of 
circumstances; rather, our efforts should focus on using the 
Commissions, bilateral efforts and the EU's Eastern Partnership to 
bolster the democratic institutions and free markets in these nations. 
But without the vision of where tough reforms will lead, the political 
support for such reforms may thin.
    The key challenge to a Europe whole, free and at peace is how 
Russia fits into the equation. I was at the founding summit of the 
NATO-Russia Council at Pratica di Mare Air Force Base outside Rome. 
Aspirations were high for what this partnership could accomplish. 
President Bush even referred to the Council as a pathway to an alliance 
with the Alliance. However, democratic backsliding in Russia undermined 
the confidence in that partnership, limiting the possibilities of the 
Council.
    As the NATO-Russia relationship mimics the U.S.-Russia relationship 
in hitting the reset button, we need to do so with our eyes wide open. 
This effort will not succeed if Russia decides not to cooperate. Russia 
is seeking to use the Council to enhance its stature and to gain 
leverage of the Alliance. Hence, Moscow shuts off alternative routes to 
support NATO operations in Afghanistan, while making available routes 
that cross Russia. Like the Administration, I want this to be a 
relationship of cooperation rather than competition, but we do not hold 
all the cards to make it so.
    Furthermore, I caution that we not allow ourselves or our allies to 
be lured away from the hard work of renewing our Atlantic Alliance by 
Russian proposals for a new European security architecture. There is no 
harm from discussing such ideas as long as we keep our governments 
focused on the task of strengthening NATO over the coming year and not 
downgrade the role of NATO in any broader architecture.
    Increasingly, the focus of the U.S. relationship with Europe is not 
European issues, but rather global challenges. Indeed, when the United 
States and Europe act together, we are more effective in dealing with 
any problem regardless of geography. NATO, accordingly, should be a 
leading vehicle through which Europe and North America act globally. 
This means ensuring we have an Alliance prepared to help lead new 
missions as merited, for example, supporting an African Union 
humanitarian operation or even an eventual peace deal in the Middle 
East.
    Almost any conceivable military mission today would involve our 
NATO allies, but also entail valuable contributions from other 
partners. NATO can and often should remain the organizing core around 
which such broader coalitions are built, as the Alliance offers an 
increasingly international standard of interoperability and command 
capable of incorporating partners. NATO's track record with the 
Partnership for Peace, the Mediterranean Dialogue and Istanbul 
Cooperation Initiative is a good basis upon which to continue to 
strengthen ties to other global partners, such as Australia, Japan, 
South Korea and the African Union. As we work to strengthen the 
Alliance's global partnerships, we should entertain the possibility of 
alliances with the Alliance with our closest partners who share our 
values and interests.
    Before I conclude, I would like to comment on European defense 
efforts and France's return to the integrated military command.
    President Sarkozy's election in France represented the victory of a 
vision of a strong France in partnership with the United States, rather 
than the Gaullist tradition of a strong France defined in opposition to 
the United States. The challenge Paris and Washington face is to ensure 
that this French strategic perspective endures beyond the presidency of 
Sarkozy. The United States laid the groundwork over the past several 
years for France to normalize its relations with the Alliance as we 
worked to end the perception of ambivalence or even hostility in the 
United States toward European defense, by calling for a strong Europe 
as a strong partner of the United States. Our experience shows us that 
we do not need to fear a strong Europe, but rather the weakness of our 
partners. In parallel, the French began to demonstrate that Sarkozy was 
serious about committing the resources required to return France to 
NATO's military command. Both sides were committed to avoid the 
pitfalls of the previous failed attempts. President Bush's strong 
statement on European defense at the Bucharest summit and France's 
emphasis on defense issues during its EU Presidency last year allowed 
Sarkozy to get his politics right, framing France's return to the 
integrated command as a ``normalization'' of French ties to a new NATO. 
It worked.
    Now we need to reap the benefits of France's return by helping 
France succeed within NATO and ensure European defense reinforces NATO. 
This means:


   Reaching an understanding with France that it will no longer work 
        to limit NATO for ideological reasons, such as preventing the 
        Alliance from developing its own civil-military capacities for 
        fear of treading on EU turf;

   Harnessing a serious French military in support of creating serious 
        Alliance capabilities;

   Ensuring French leadership within the Alliance, including the 
        position of Strategic Commander for Transformation, invests 
        France in NATO's success, particularly that of Allied Command 
        Transformation; and

   Restoring as the default for cooperation between NATO and the EU 
        the ``Berlin Plus'' arrangements which allow for the Deputy 
        SACEUR to serve as the EU's commander.


    Currently, this mechanism is only used to support the EU operation 
in Bosnia. While the EU's current military staff capacity is minimal, 
as the EU undertakes more complicated missions, it will require a 
stronger, more permanent planning and command and control capability. 
This capability should take place at SHAPE rather than any new 
permanent EU operational headquarters to avoid unnecessary costs and 
duplication.
    France's return to the integrated military command may open 
possibilities for lessening traditional European resistance to develop 
common Alliance capabilities. Much of this resistance is the result of 
a commitment in certain European capitals to building a more integrated 
European-only defense industry. While the current economic climate is 
an obstacle, concrete projects premised on transatlantic defense 
industrial cooperation, in which industry on both sides of the Atlantic 
plays a significant role, offer the prospect for gaining Allied backing 
for new NATO capability initiatives.
    Thank you Madame Chairwoman, ranking member, and members of the 
committee. I look forward to answering your questions.


    Chairman Shaheen. Thank you.
    Colonel Wood.

 STATEMENT OF COL JOSEPH WOOD, SENIOR RESEARCH FELLOW, GERMAN 
                 MARSHALL FUND, WASHINGTON, DC

    Colonel Wood. Madam Chairwoman, distinguished members of 
the subcommittee, it's an honor to be here this afternoon to 
discuss NATO's strategic future and institutional challenges as 
we move beyond the alliance's 60th anniversary. I appreciate 
the opportunity to discuss a set of issues that matters greatly 
to our security. I want to note initially that the views I will 
present are my own and not those of the German Marshall Fund of 
the United States.
    You've heard three, I think, excellent presentations from 
distinguished colleagues. In particular, Damon Wilson just gave 
you a concrete list of things that the alliance needs to do for 
institutional reform. As the wrapup person, I think I'll try to 
broaden this back out a little bit and look at some of the more 
general issues that NATO faces that are less vulnerable, if you 
will, to concrete measures, and a little more problematic going 
into the strategic concept review.
    ``Crisis in Transatlantic Relations'' has always been good 
for a headline, and ``Whither NATO?'' has been a popular 
question for the alliance since its founding. Perhaps crisis 
and doubt have been the main features of continuity over NATO's 
60 years of existence.
    The beginning of the 21th century witnessed the 9/11 
attacks, and in response, NATO's first invocation of the 
article 5 mutual defense clause. Sidelined in Afghanistan at 
the outset of that war, the alliance is now trying to see a way 
forward in difficult, and some would say deteriorating, 
circumstances.
    In this climate of contemporary problems, it's worth 
recalling a passage from the 1967 Harmel Report, written mainly 
by representatives of small of NATO's smaller members, and 
undertaken in response to an existential crisis.
    That report concluded, ``The Alliance is a dynamic and 
vigorous organization which is constantly adapting itself to 
changing conditions. It has also shown that its future tasks 
can be handled within the terms of the treaty by building on 
the methods and procedures which have proved their value over 
many years. Since the North Atlantic Treaty was signed in 1949, 
the international situation has changed significantly, and the 
political tasks of the Alliance have assumed a new dimension. 
Although the disparity between the power of the United States 
and that of Europe remains, Europe has recovered and is on its 
way toward unity.'' end quote, in 1967.
    Four decades later, that assessment could be applied to 
NATO today. NATO's successes are truly historic. 
Institutionally, it established and maintained reasonably 
robust procedures and standards for military planning and 
operations despite barriers ranging from language differences 
to longstanding animosities among its members.
    It developed effective, if sometimes inefficient, means of 
political coordination on security matters. And measured by 
outcomes, NATO can count the successful defense and extension 
of freedom in Europe throughout and after the cold war, the 
management of the security aspects of the 1990s Balkans wars, 
and the enlargement of the alliance in ways that encouraged 
reform in new members.
    That said, NATO does face some real difficulties which 
differ qualitatively and perhaps decisively from its earlier 
anxieties. NATO in Afghanistan is laboring in intrinsically 
difficult territory under several extrinsic burdens. Its 
overall strategy and objectives have been unclear and difficult 
to explain to allied publics. Differences on aid programs, 
methods for dealing with poppy production, lack of 
coordination, and other unresolved questions about political 
and economic development have all hindered the nonmilitary 
aspects of NATO's effort, so critical in a campaign like this 
one.
    But for those concerned about NATO's continued viability, 
the greatest internal problem has been the refusal of some 
allies to take on the same risk as others. The restrictions on 
operations imposed by such allies as Germany and Italy have in 
effect created a two-tier alliance, something military planners 
worked hard to avoid throughout the cold war. This division is 
especially damaging because some of the allies with the 
smallest potential to contribute have done so without 
restrictions, while some with the greatest potential have opted 
out of the most difficult and dangerous operations.
    The result has been not just resentment, but real questions 
about the very meaning of the term ``alliance''. When some 
members accept greater risk than others, questions inevitably 
arise as to what it means that an armed attack against one or 
more of them in Europe or North America shall be considered an 
attack against them all.
    Certainly article 5 leaves latitude for each ally to 
determine its own appropriate response, and the war in 
Afghanistan was not undertaken as an article 5 operation under 
NATO command.
    But to have NATO's most significant military operation 
create ambiguity surrounding various allies' willingness to 
undertake dangerous missions, even against regimes as brutal as 
the Taliban, has a corrosive effect that may be lasting.
    Some governments, for example, the Netherlands, at least 
until recently, Great Britain and Canada, as well as many of 
the Central European allies, have been able to sustain a 
commitment to the more dangerous work NATO has undertaken. 
Others, especially Germany and Italy, have not done so, though 
they have lost lives and expended treasure in their Afghan 
missions. The inability or unwillingness of those countries to 
commit to greater risk has transcended particular governments 
and operates even under avowedly pro-American leaders. That 
fact suggests that in those countries at least, there are broad 
objections to taking on the more dangerous tasks of a war.
    So Americans are entitled to wonder if the Taliban regime 
and al-Qaeda are not morally and practically worth opposing 
with military action, what enemy would qualify for united NATO 
action? Doubts on this score seem to suggest a basic divergence 
over what constitutes good and evil and whether any regime is 
worth risking life to oppose.
    Turning to NATO enlargement, in April 2008, the allies 
agreed that Ukraine and Georgia will at some point be members 
of NATO. But at the behest of General Chancellor Merkel, with 
support from French President Sarkozy, the alliance did not 
offer Membership Action Plan to either country. Because MAP 
has, for the most recent candidates, been the standard path to 
eventual membership, the effect of this decision was clear: To 
forestall any prospect of NATO membership for Ukraine or 
Georgia in the near future.
    Berlin and Paris base their objections on the fact that 
neither Kyhiv nor Tbilisi was ready for NATO membership, but 
none of the countries admitted during the post-cold-war 
enlargement of NATO were ready for the responsibilities of 
membership when they entered the MAP process.
    Indeed, MAP presumes that the candidate has work to do; in 
some cases, a great deal of work. Moreover, as the candidate 
nation takes on that work, it does not participate in the 
article 5 commitment to mutual defense. There was thus no 
possibility that a different decision a year ago would have 
obliged Germany or any other allied country to defend another 
country that was not ready to be a member militarily or 
politically.
    The real concern for Germany and France seems to have been 
Russian objections to even the possibility that Georgia and 
Ukraine might eventually become NATO members. In taking such an 
approach, Chancellor Merkel declined a direct request by 
President George W. Bush, a historic projection of American 
leadership on a key issue.
    Those who share this view seem more interested in taking a 
pragmatic approach to immediate interests than extending the 
institutional success of NATO and expanding the security of the 
beliefs that caused the allies to come together in 1949, 
extending those beliefs to nations farther east.
    This division about basic values and interests and the 
relationship between the two reflects serious differences 
within the alliance. The United States and most of the allies, 
especially the newer members in Central Europe, believe that 
the extension of NATO's defensive alliance is not complete, and 
the continued enlargement is not in conflict with Russia's 
legitimate security interest.
    Others have a different vision of the future geography of 
European security. This fundamental dichotomy will sharpen 
divergences and the willingness to take risks, raising 
questions about which responsibilities are shared and which are 
not within an alliance built on common values and a willingness 
to take on dangers and burdens for a larger cause.
    NATO's many successes have come in a sustained atmosphere 
of crisis characterized by differences among members about 
means and methods. Accordingly, any forecast of the demise of 
NATO should be treated with more than a grain of historical 
salt.
    But the key to NATO's future will be a recognition that the 
differences facing NATO on its 60th anniversary are real, and 
they are about ends, rather than simply about methods and 
means, and that surmounting those differences will be more 
difficult and require a greater sustained effort than in the 
past. Europe and North America should make that effort the 
center of NATO's attention in the coming months.
    Again, Madam Chairwoman, I appreciate the opportunity to 
appear before the subcommittee today.
    Thank you.


    [The prepared statement of Colonel Wood follows:]


                Prepared Statement of Colonel James Wood

    Madame Chairwoman, distinguished members of the subcommittee, it is 
an honor to be here this afternoon to discuss NATO's strategic future 
and institutional challenges as we move beyond the Alliance's 60th 
anniversary. I appreciate the opportunity to discuss a set of issues 
that matters greatly to our security. I want to note initially that the 
views I will present are my own, not those of the German Marshall Fund 
of the U.S.
    ``Crisis in transatlantic relations'' has always been good for a 
headline, and ``Whither NATO?'' has been a popular question for the 
Alliance since its founding. Perhaps crisis and doubt have been the 
main features of continuity over NATO's 60 years of existence. In the 
1950s, the military structure of the Alliance developed through the 
years of the Korean War, the divisive Suez crisis, and Sputnik; in the 
same decade, then-West Germany joined the Alliance. The 1960s saw 
continued tension over Berlin, changes in U.S. nuclear doctrine that 
carried major implications for the allies, and the withdrawal of France 
from NATO's military structure.
    The 1970s brought Germany's Ostpolitik, an American internal loss 
of confidence after Vietnam, and the first decisions on the deployment 
of short- and medium-range nuclear missiles that rocked Europe. The 
1980s saw President Reagan's ``evil empire'' speech and his declaration 
of intent to eliminate nuclear weapons, both disconcerting for the 
allies who found them surprising and unnerving.. And 1989 brought the 
fall of the Berlin Wall.
    What many considered NATO's raison d'etre, and certainly the 
proximate cause of its existence, ended soon afterward with the fall of 
the Warsaw Pact and the Soviet Union itself. Yet NATO survived and 
responded to crises in Bosnia and Kosovo, even as it continued to 
agonize over its continued relevance.
    The beginning of the 21st century witnessed the 9/11 attacks and, 
in response, NATO's first invocation of the Article V mutual defense 
clause. Sidelined in Afghanistan at the outset of that war, the 
Alliance is now trying to see a way forward there in difficult and, 
some would say, deteriorating circumstances.
    In this climate, it is worth recalling a passage from the 1967 
Harmel Report, written mainly by representatives of some of NATO's 
smaller members and undertaken in response to an existential crisis. 
That report concluded: ``The Alliance is a dynamic and vigorous 
organization which is constantly adapting itself to changing 
conditions. It has also shown that its future tasks can be handled 
within the terms of the treaty by building on the methods and 
procedures which have proved their value over many years. Since the 
North Atlantic Treaty was signed in 1949, the international situation 
has changed significantly and the political tasks of the Alliance have 
assumed a new dimension. . Although the disparity between the power of 
the United States and that of Europe remains, Europe has recovered and 
is on its way towards unity.''
    Four decades later, that assessment could be applied to NATO today. 
NATO's successes are truly historic. Institutionally, it established 
and maintained reasonably robust procedures and standards for military 
planning and operations, despite barriers ranging from language 
differences to long-standing animosities among its members. It 
developed effective, if sometimes inefficient, means of political 
coordination on security matters.
    Measured by outcomes, NATO can count the successful defense and 
extension of freedom in Europe throughout and after the Cold War; the 
management of the security aspects of the 1990s Balkans wars; and the 
enlargement of the Alliance in ways that preserved NATO's functions 
while encouraging reform in new members.
    That said, NATO does face some real difficulties which differ 
qualitatively, and perhaps decisively, from its earlier anxieties.
                     the challenges of afghanistan
    NATO in Afghanistan is laboring in intrinsically difficult 
territory under several extrinsic burdens. Its overall strategy and 
objectives have been unclear and difficult to explain to allied 
publics. Differences on aid programs, methods for dealing with poppy 
production, lack of coordination, and other unresolved questions about 
political and economic development have all hindered the non-military 
aspects of NATO's efforts, so critical in a campaign like this one.
    But for those concerned about NATO's continued viability, the 
greatest internal problem has been the refusal of some allies to take 
on the same risks as others. The restrictions on operations imposed by 
such allies as Germany and Italy has, in effect, created a two-tier 
alliance, something military planners worked hard to avoid throughout 
the Cold War. This division is especially damaging because some of the 
allies with the smallest potential to contribute have done so without 
restrictions, while some with the greatest potential have opted out of 
the most difficult and dangerous operations.
    The result has been not just resentment, but real questions about 
the very meaning of the term ``alliance.'' When some members accept 
greater risk than others, questions inevitably arise as to what it 
means that an ``an armed attack against one or more of them in Europe 
or North America shall be considered an attack against them all.'' 
Certainly, Article V leaves latitude for each ally to determine its own 
appropriate response, and the war in Afghanistan was not undertaken as 
an Article V operation under NATO command. But to have NATO's most 
significant military operation create ambiguity surrounding various 
allies' willingness to undertake dangerous missions, even against 
regimes as brutal as the Taliban, has a corrosive effect that may be 
lasting.
    If NATO's difficulties in Afghanistan were simply a matter of the 
friction that attends coordination among 28 bureaucracies, the problems 
would be vexing but not catastrophic. Such problems of process and 
mechanics have always existed, and they have always slowed progress. 
Indeed, they are explainable as the ``cost of doing business'' through 
an organization that operates on the principle of consensus, reporting 
to capitals that are each accountable to pluralistic political systems.
    But they are still messy, and that messiness can carry serious 
consequences. The problems of coordination in NATO's 1999 Kosovo 
campaign convinced some Bush administration officials that NATO could 
not be relied upon in actual conflict situations. Afghanistan, however, 
represents what may be a different level of divergence. Some 
governments--for example, the Netherlands, Great Britain and Canada (as 
well as many of the Central European allies)--have been able to sustain 
a commitment to the more dangerous work NATO has undertaken. Others, 
especially Germany and Italy, have not done so (though they have lost 
lives and expended treasure in their Afghan missions). The inability or 
unwillingness of those countries to commit to greater risk has 
transcended particular governments and operates even under avowedly 
pro-American leaders. That fact suggests that in those countries, at 
least, there are broad objections to taking on the more dangerous tasks 
of the war.
    So Americans are entitled to wonder: If the Taliban regime and al-
Qaida are not morally and practically worth opposing with military 
action, what enemy would qualify for united NATO action? Doubts on this 
score seem to suggest a basic divergence over what constitutes good and 
evil, and whether any regime is worth risking life to oppose.
                            nato enlargement
    In April 2008, the Allies agreed that Ukraine and Georgia will at 
some point be members of NATO. But at the behest of German Chancellor 
Angela Merkel, with support from French President Nicolas Sarkozy, the 
alliance did not offer a Membership Action Plan to either country. 
Because MAP has, for the most recent candidates, been the standard path 
to eventual membership, the effect of this decision was clear: to 
forestall any prospect of NATO membership for Ukraine or Georgia in the 
near future.
    Berlin and Paris based their objections on the fact that neither 
Kyiv nor Tbilisi was ready for NATO membership. But none of the 
countries admitted during the post-Cold War enlargement of NATO were 
ready for the responsibilities of membership when they entered the MAP 
process. Indeed, MAP presumes that the candidate has work to do, in 
some cases a great deal of work. Moreover, as the candidate nation 
takes on that work, it does not participate in the Article V commitment 
to mutual defense. There was thus no possibility that a different 
decision a year ago would have obliged Germany or any other ally to 
defend a country that was not ready to be a member, militarily or 
politically.
    The real concern for Germany and France seems to have been Russian 
objections to even the possibility that Georgia and Ukraine might 
eventually become NATO members. In taking such an approach, Chancellor 
Merkel declined a direct request by President George W. Bush to extend 
MAP to Ukraine and Georgia, a historic rejection of American leadership 
on a key issue. Those who share this view seem more interested in 
taking a pragmatic approach to immediate, economic national interests 
than in extending the institutional success of NATO, and expanding the 
security of the beliefs that caused the allies to come together in 1949 
to nations farther east.
    This division about basic values and interests, and the 
relationship between the two, reflects serious differences within the 
Alliance. The United States and most of the Allies, especially the 
newer members in central Europe, believe that the extension of NATO's 
defensive alliance is not complete and that continued enlargement is 
not in conflict with Russia's legitimate security interests. Germany 
and France (and Russia) have a different vision of the future geography 
of European security. This fundamental dichotomy will sharpen 
divergences in the willingness to take risks, raising questions about 
which responsibilities are shared, and which are not, within an 
alliance built on common values and a willingness to take on dangers 
and burdens for a larger cause.
    For perhaps the first time in NATO's history, then, we may need to 
ask what happens to a military or security organization when 
fundamental purposes diverge. For the cases of Afghanistan and 
enlargement raise questions not of means to ends, but of ends 
themselves. And beyond the issue of ends and purposes in Europe, 
broader global issues will pose a challenge for NATO in practical 
terms.
    Even in the post-Cold War era, when the attention of U.S. 
policymakers has often turned in other directions, Europe's fundamental 
importance has remained sufficiently clear and strong to ensure the 
mutual and continued core relevance of each side of the Atlantic to the 
other. That situation may be changing. Many commentators have noted the 
extraordinary array of challenges the Obama administration faces as it 
approaches its first few months: Iraq, Afghanistan, Pakistan, Iran, 
North Korea, and the broader Middle East all present immediate dangers. 
In the longer term, China is both a key economic partner and a 
potential regional challenger. Latin America, including Mexico, 
requires tending, and Africa needs continued assistance.
    Given these challenges, there will be a real temptation for 
Washington to view European security with less urgency, just as many 
Europeans have feared would eventually happen. After all, if the 
largest nations in continental Europe are content to grant Russia the 
sphere of influence it seems to seek, American leaders may not want to 
expend valuable energy and time resisting that course, although the 
current administration has admirably rejected the idea of spheres of 
influence in Europe and insisted that all nations should choose their 
own alliances. While a lessening of American engagement would be 
disappointing and dangerous for the newer allies in central Europe, who 
have contributed much where the United States has asked, the burden 
will be on them and like-minded Western European nations to work to 
close policy gaps to manageable scales.
    The greater risk, however, is that basic questions on beliefs and 
purposes go unanswered and fester, leaving NATO less able to take 
united decisions. The United States could find itself working on 
critical issues directly with its more like-minded friends and leaving 
NATO to attend to less controversial, and less important, issues. Like 
a self-fulfilling prophecy, fears of NATO's irrelevance could thus be 
realized.
    This year's 60th anniversary will, like all such milestones, prompt 
a new version of the old debate about ``Whither NATO?'' Such questions 
are especially grave this year. The United States will find it much 
harder to cope with the global array of security issues it faces with a 
weakened trans-Atlantic security relationship, and Europe will find 
such a weakened relationship harmful to its project of economic and 
political integration. NATO members need to use this year and the new 
strategic concept to begin answering the hard questions that face the 
alliance.
    Yet a future of irrelevance and ineffectiveness for NATO is far 
from inevitable. For the first time in over 40 years, France rejoined 
the Alliance's integrated military command structure, a step that could 
bring with it the resolution of difficult issues surrounding NATO's 
cooperation with the European Union. In a more negative light, Moscow 
may continue to assert its interests in ways that force NATO to rally 
to the deterrence of aggression aimed at Central European allies.
    NATO's many successes have come in a sustained atmosphere of 
crisis, characterized by differences among members about means and 
methods. Accordingly, any forecast of the demise of should be treated 
with more than a grain of historical salt. But the key to NATO's future 
will be a recognition that the differences facing NATO on its 60th 
anniversary are real, and that surmounting those differences will be 
more difficult and require a greater sustained effort than in the past. 
Europe and North America should make that effort the center of NATO's 
attention in coming months.
    Again, madame chairwoman, I appreciate the opportunity to appear 
before the subcommittee today.


    Chairman Shaheen. Thank you all very much. Colonel Wood--
and I would ask all of the panelists, I guess--but you 
specifically talked about the problem of creating a two-tiered 
alliance, which we're seeing in some respects with Afghanistan. 
What could, what should NATO be doing to address this 
differently so that we ensure a more equitable burden sharing 
among all of the members?
    Colonel Wood. That's a wonderful question. The 
administration that Damon and I were part of struggled with 
that with not a whole lot of success. President Obama, I think, 
undertook his trip to Europe with the hope that he might be 
able to convince some of the allies to do more than they've 
done.
    The press reports were that there was some level of support 
for that among the European allies, and there was discussion of 
some 5,000 new troops, although the reality of that is very, 
very hard to see. I think those troops are hard to count and 
hard to actually find.
    I don't have a good solution for you because I think the 
problem is fundamentally political, and I think it has to do 
with the question of how some publics and some politicians, 
political leadership in Europe, gauges the reaction and the 
potential reaction of their publics, to whom they're 
democratically accountable, to the possibility of increasing 
the risks that they take.
    And so I think that we will be able to at the edges improve 
NATO's contribution. We'll be able to improve the chain of 
command and improve the effectiveness of how NATO performs in 
Afghanistan.
    But unless there is a fundamental shift in the political 
commitment to the cause of fighting the Taliban, dealing with 
al-Qaeda, with the problems in Afghanistan, and separately, in 
Pakistan, it's very difficult for me to see a profound or 
substantially different way forward, despite the best efforts 
of the President.
    The only solution I can offer you is the bromide of 
American leadership that's tried and true, and I don't think 
without American leadership, any improvement will be seen. But 
even with that leadership, I think it's going to be very 
difficult.
    Chairman Shaheen. Anyone else want to tackle that?
    Mr. Wilson. Madame Chair, if I may, I think this is a tough 
question. It hits at the heart of the challenge with the 
alliance, and I think there are two ways to approach it.
    One is the politics. What we're lacking in Europe is a 
cadre of leaders, politicians, parliamentarians that are 
willing to regularly speak out in favor of both partnership 
with the United States, but the alliance itself. How often has 
a European head of state given a speech on Afghanistan? Not 
often.
    And I think that's a challenge that we need in various 
political channels, whether through the executive branch or 
many of your colleagues, to challenge your European partners. 
If they are not out making the case to their publics, then how 
do they expect to generate the public support to sustain 
difficult, expensive operations?
    And part of this is getting the politics right. I think 
that's why the choice of former Danish Prime Minister Anders 
Fogh Rasmussen as Secretary General is a good choice to give 
someone with a strong, clear voice who has a track record of 
speaking out on these issues in his own election and campaigns. 
It's the kind of leader, European leader, we need making that 
case in Europe.
    There are other smaller practical steps. Caveats used to be 
a very discreet military term that no one knew about. When I 
worked for Lord Robertson, part of what we did was to shine a 
spotlight on this, and through a little bit of shaming, trying 
to bring countries to terms with the constraints that they were 
putting on the use of their forces, and making it a political 
issue so that we could generate momentum to reverse that.
    That's only had a certain degree of impact, but it's the 
kind of practical stuff that can continue.
    Chairman Shaheen. Thank you.
    Dr. Hamilton. Madam Chairman, if I may, I agree that the 
core of this is political, and that much of what my colleagues 
say is true. We should, however, recall that NATO has always 
been a multitiered alliance. We have a superpower engaged with 
a lot of allies who are certainly at different levels of 
capability. And we've always had to manage this imbalance 
within our capabilities.
    The United States, of course, has global concerns as well 
as global reach. Many of our allies have a regional 
perspective, and that's part of NATO's transformation that's 
been so difficult.
    So while politics is at the core of it, I do believe that, 
as we think about a strategic concept and about the future of 
the alliance itself, there are other things to think about.
    One is that NATO is a consensus organization. And so often 
on these types of missions, everyone has to agree. But not 
everyone then participates. And yet, everyone can still block 
what is happening because of the nature of this consensus 
principle.
    So we would argue to maybe think harder about modifying 
that rule in operations. There should always be consensus at 
the level of the North Atlantic Council to agree or not on a 
mission. But once a mission is agreed at that level, shouldn't 
the nations then participating in the mission be the ones 
actually then to be making decisions about the nature of their 
conduct?
    I think that allows those to move ahead who are committed, 
and maybe those who can't participate, there are reasons for 
that. But don't stop the mission from happening or make it 
worse.
    Another element is that as we went through this list of 
missions for NATO, whether home or away, all of them require 
deployable forces. Even defense in Europe today cannot be 
accomplished with static forces.
    If we think about the old dividing line, the Fulda Gap, the 
Iron Curtain running through Germany, we asked the Germans to 
create static tank forces, land forces, heavy forces. Right 
there, at the Fulda Gap we're protecting their own country.
    Now we've asked the Germans to deploy forces very far away. 
Germany today, it's interesting, has no borders, and only one 
with Switzerland. All the others have been swept away by the 
Schengen Agreement providing for open borders in Europe.
    So if Germany is to defend itself, it has to project at 
distance somewhere else, even within Europe. And yet, it's had 
trouble making that adjustment from the kinds of forces it had 
for the cold war to the kinds it needs today. And I think you 
see that pattern among other allies.
    So the point has to be strongly made, that every allied 
force now has to be a deployable force. And yet many NATO 
forces are just static. The sit in place. They don't do a lot, 
frankly. And we should be, I think, sending a very, very strong 
message about the need to change this.
    Chairman Shaheen. Thank you.
    Senator DeMint. Because you arrived a little late, I assume 
you might want to make an opening statement before you begin 
questions?

             OPENING STATEMENT OF HON. JIM DEMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Madam Chairman. I think just 
about everything in my opening statement has been addressed to 
some degree, and I'd like to jump mostly into some questions 
here to make the most of the time.
    Clearly, NATO is very important to the United States. I 
mean, it's the only cohesive group on the side of freedom right 
now, and we're all concerned about a potential setback or 
failure in Afghanistan, what that might do to the alliance. I 
was in Brussels a few weeks ago and met with a number of 
European ambassadors to talk about NATO, the EU, and the 
European Union security force idea that's developing.
    And the--if I could just kind of take the logic forward a 
little bit, we talk about the two-tier, and it's more like a 
multiple-tier, as Mr. Hamilton said. We've got a superpower. 
We've got some medium powers. We've got others who can do 
different things.
    But the difficult thing I think for us as we look at this 
as a long-term commitment of the United States is that those 
countries now that seem to want less and less--have a fighting 
role are those that seem to be most committed to developing the 
alternative European Union security force approach.
    And as I see the commitment to NATO, the exercises that 
would lead to interoperability, the things that have to happen 
for NATO to work, any less commitment than we have today in 
NATO from our European partners, particularly the larger ones, 
would seem to make it very difficult for it to operate, and 
shift more and more of the responsibility to the United States.
    I mean, the ones that--the countries that are doing the 
fighting, the United States, Canada, Netherlands, others, are--
it seems that this alternative idea is being developed. I 
discussed that with some of the European ambassadors, and it 
was usually, ``No, that's not an alternative,'' but there's 
only so much resources to go around.
    And I think what it appears is whether it's Italy, France, 
Germany, that the countries that are balking somewhat at a 
fighting role with NATO are more committed to developing this 
alternative, which creates a dilemma for us. And we need 
allies, but we need allies who are committed to some of the 
same principles.
    And so I'd just maybe like a lot of--maybe the three of you 
here just to address that thought, where the Europeans are 
really going, and you can't really discuss that without putting 
Russia in the middle of it, which is now meddling and pulling 
some of the former republics toward itself, and creating 
somewhat of a chaos with energy, using energy as a weapon and 
things like that.
    So, Mr. Wood, I'll start with you. I don't know if I made 
enough sense to actually ask a question here, but maybe you can 
pick up on some of that.
    Colonel Wood. No, Senator, I understand what you're driving 
at at several different levels. This is, as you well know, not 
a new problem. We struggled with how to handle ESDP and ESDI in 
the 1990s, whether or not it was a threat to the core functions 
of the alliance.
    It's been less of a theological problem in recent years. 
It's been somewhat overshadowed, I think, by the addition of 
the new members from, most recently, Croatia and Albania, and 
then before that, the round of Central European allies who 
joined who, although I don't think as slavishly pro-American as 
some Europeans in Western Europe view them, are fundamentally 
pro-American.
    They have a fairly recent history of--memory of 
understanding what tyranny is like, and they are somewhat 
sympathetic to the idea of preventing tyranny, and they're very 
sensitive to what Russia's doing, as you pointed out.
    France has now rejoined the military system, the military 
integrated with the military command structure in NATO. They 
were never completely disintegrated. I went to French Defense 
College, and my French compatriots there had an excellent 
understanding--this was the late 1990s--of NATO's military 
methods and operations. They had kept up with that. We 
exercised together from time to time.
    But the President Sarkozy took in some ways difficult 
political decision to reintegrate French military forces. The 
question for any French leader is whether or not he's doing 
that because of some sudden embrace of a transatlantic view 
that really is radically different from previous French 
Presidents, and I think Sarkozy is very different in how he 
views the world than previous French Presidents.
    But whether he is doing this to, if you will, harness NATO 
and the rest of Europe to French foreign political ambitions, 
that's not necessarily a bad thing. If we can gain more unity 
as a result of doing that, there's a potentially great outcome 
from this, which is that it will give France a new interest in 
the success of NATO.
    I've personally always wanted the Quai d'Orsay, the French 
Foreign Ministry, to have a real interest in the success of 
NATO. That's one of the best things that could happen for the 
United States in terms of real unity, to have them pulling with 
NATO instead of balking against NATO and resisting American 
influence.
    With that said, I believe that I detect at a variety of 
levels the same thing which you may be driving at. I don't want 
to put words in your mouth. But the sense that in some parts of 
Western Europe in particular, there really is an ambivalence 
about a continuation of the same level of American leadership 
on security issues that there has been in the past.
    I don't know whether that stems from the last 8 years and 
the particular unpopularity of President Bush in Europe, or 
whether it's a longer term trend. I think we need to remember 
that when former French Foreign Minister Vedrine described the 
United States as a hyperpuissance, a hyperpower, he did that 
under President Clinton, and it was Secretary of State Albright 
who had to respond to charges about American unipolarity by 
noting that the United States was the indispensable country.
    So it's something that's been there for a long, long time, 
this kind of resistance. I don't know exactly where it's going, 
but I think there is a division in the alliance right now 
between those allies who want a greater European autonomy and 
who are more resistant at this point for a variety of reasons 
to American leadership than maybe they have in the past, given 
the exigencies.
    At the same time, there are a group of allies who are quite 
concerned about the reality of day-to-day security, whether 
it's in the Balts or whether it's in Poland or the Czech 
Republic, countries that are closer to Russia. They watch 
Moscow's actions, both militarily in the caucuses and 
economically in energy security and other areas, and wonder 
what's ahead. They are the ones who hear the threats of attack 
when they agree to missile defense instillations with the 
United States, coming from the Russian Foreign Ministry.
    So they have real article 5 concerns that have in a sense 
reappeared in the last 2 or 3 years, and they very much I think 
still want American leadership and seek American leadership.
    Again, I'm giving you a mixed answer. When the Russia 
proposed--President Medyvev proposed last year this new 
security architecture for Europe to be discussed in the context 
of OSCE, President Sarkozy was quite strong in saying, ``We'll 
talk about security with Russia, but we'll do so with our 
partners, the United States.''
    And that's a very encouraging sign. That means that there 
is a certain commonality of end and purpose that's still in 
place, even if the means are different. I think it's natural 
and healthy for the Europeans to want those means, but we still 
have a ways to go in how we integrate them and what the foreign 
policy goals are to which we would attach those military means.
    So I'm sorry to give you an ambiguous answer. I just think 
it's very, very unclear at this point.
    Senator DeMint. It was an ambiguous question, but I think 
my concern is that if our NATO allies, particularly the older 
ones, know they have--that there's a real threat, if there's 
any kind of attack, that we'll be there, that our resources, 
our soldiers, they're there.
    So they can keep us on the shelf, do their own thing until 
they need us, and that--because they want to be more 
autonomous. And I know some of our allies do. That may or may 
not be a good thing, but it seems like we are committed--our 
resources are committed, while their commitment may not be as 
much to the NATO alliance, which includes us and Canada.
    So I'm just concerned that we may be on the hook, but it 
may not be as reciprocal in the future the way it's going.
    Colonel Wood. No, I think--at the end of the day, I think 
the problem you're describing is that we are a superpower with 
global responsibilities, and we tend to, over time----
    Senator DeMint. Anyway----
    Colonel Wood. [continuing]. Implement our commitments. I 
will say this, though. Working against that is what I think is 
a long-term and a biting fear on the part of most Europeans of 
becoming irrelevant to America. That's I think the greatest 
underlying and overlaying fear of most European leaders, is the 
United States will forget about them.
    If I put myself in the position of someone who is in this 
administration right now and think about just what the 
immediate dangers are, the things that could really get 
dangerous tonight--Iran, Pakistan, Afghanistan, Iraq, the 
broader Middle East, North Korea--none of those are Europe.
    If you look at the sort of second-tier problems, where you 
have China, a potential regional competitor in Asia, as well as 
an economic partner; you have Russia, with what seems to me to 
be a fairly clear ambition to establish a sphere of influence 
or reestablish a sphere of influence, but an unknown final 
ambition toward Central and Western Europe, that's a little 
farther down the line, and it's something that, if I were in 
the administration, I would at least be tempted to say, 
``Germany and France, you go deal with that.''
    In the long run, I think that's very dangerous for us to 
take that approach, and I don't want to imply this 
administration has taken that approach. But I think those in 
Europe who have for a long time feared being irrelevant or 
becoming irrelevant to the United States, maybe have more 
reason to fear that now and will want to cooperate with us more 
intensely and work the accommodations that you've described as 
necessary in the future.
    Senator DeMint. I hope so. Madame Chairman, since I did 
skip my opening statement, may I allow these two just to make a 
quick comment?
    Chairman Shaheen. Absolutely.
    Senator DeMint. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Senator. I would say when I was in 
government, our concern--our fear--was not that Europe was too 
strong, but that Europe was too weak.
    Senator DeMint. Right.
    Mr. Wilson. And so particularly when I worked at the White 
House, part of what we orchestrated with the Elysses over the 
last 18 months with the Bush administration, was a delicate 
dance in which the United States would more equivocally come 
out in support of a European defense to help the French get the 
politics right, so that it would pave the way for France's 
return to NATO, because we wanted the French to have a sense of 
ownership within the alliance, and to feel that they can 
achieve what they want on the global stage working with us 
within the alliance, rather than without us and having to do it 
as a separate ESDP structure.
    Today, the EU military staff is maybe a hundred people, 
just over a hundred people. That's not a problem. It's not 
duplication. The EU today doesn't have the capacity to manage a 
complex operation, and if it were to move in that direction, 
that's where we get concerned about whether some in Brussels 
would push for the development of a more permanent structure 
that would frankly duplicate.
    And this is where I think with France's return to the 
alliance, we need to work this diligently with our partners so 
that we restore as the default for cooperation the structures 
that we have in place that allow the European Union to use the 
structures within the alliance to act for EU operations when 
the United States doesn't want to be involved.
    This way, you embed what the EU is doing with our 
activities at SHAPE, at NATO's military headquarters, and you 
embed them in a way that doesn't lead to duplication. After 
all, these are the exact same forces that we're talking about. 
What we've been concerned about is that we not develop 
competing alternative structures for command and control and to 
integrate those forces.
    But again, I think part of this is why it's important for 
France's return. We want them to have some sense of ownership. 
The United States gave France two four-star commands within the 
alliance at Norfolk and at Lisbon so that they will take some 
ownership of that and increasingly work European issues with 
the alliance rather than outside and in contrast to the 
alliance.
    Senator DeMint. Mr. Hamilton.
    Dr. Hamilton. I was going to start with the same point 
Damon just ended with. These are the same set of forces. This 
is not an alternative army. These are the same armies. They 
would just be deployed for different purposes. And I think that 
gets to the heart of much of this.
    I should also add a country that's been the main drive for 
this in the last number of years has been Great Britain. And 
certainly the British are not engaged in the EU effort here to 
distance themselves from the United States. They've been 
engaged, in fact, to make sure that NATO and the EU are aligned 
well.
    I think the questions really come up regarding operations 
in which the United States might not participate, in which 
Europeans feel they have a security challenge, and they either 
don't know if they can count on the United States or in which 
the United States, because of what Joe said, might have other 
things going and might not be able to participate. What then?
    These are the kinds of capabilities and issues that they're 
trying to grapple with. And frankly, they've had some 
experience with this. I would argue in the first Bush 
administration and in the early Clinton administration, the 
United States was not there with its allies in the Balkans and 
Bosnia. We failed. It was a bipartisan failure, I would argue, 
to stand together with European troops on the ground who were 
facing a horrible situation. We did not engage.
    And I think the lesson many of those European allies took 
out of that was, ``We have to build some hedge, unfortunately, 
if the United States isn't there for us.'' Now, we could argue, 
now we are there, and that was a passing episode. But I think 
people have these memories, and they influence policy.
    So I think the best answer to that European fear of 
abandonment by the United States, is to be there and to be 
engaged and to make that always a consistent message. But there 
might be operations, say, for instance, in Africa, in which the 
United States might not want to participate militarily, and 
which the Europeans might have some role to play with the 
African Union. At the moment, they can't get to Africa from 
Europe because we have to fly them there. And so our 
capabilities are being used to do that for them.
    So if there's any effort here that promotes European 
capabilities--which I think is our shared interest in the 
United States--that should be a good thing for the United 
States to promote the types of European capabilities so 
Europeans can take more control over their own security, if we 
are not able to choose not to be there in a crisis.
    These are the kinds of very specific areas in which I think 
the Europeans are trying to develop their capabilities, but the 
ambition is not to duplicate NATO, and they have shown no 
serious effort to try to develop forces that can project 
further that would be independent of any U.S. link. In fact, as 
I said, they're dependent on us providing that link for them.
    So I think the theology has disappeared, and now we're 
working on what are the practical arrangements where Europeans 
could develop some value added to our overall effort on that 
one part of the spectrum, which might be very minor, in 
situation where the United States might not potentially engage.
    Senator DeMint. Thank you. Thank you for all the time, 
Madam Chair.
    Chairman Shaheen. Senator Kaufman.
    Senator Kaufman. Madam Chairman, thank you for holding this 
hearing. I want to follow up on your question and Senator 
DeMint's, and that is, NATO's an incredible organization and an 
incredible concept. America should be involved. I'm all for all 
that.
    But I'm finding on my last trip to Afghanistan pretty much 
the same kind of thing I found when I went to Kosovo and to the 
Balkans, and that is, complexity does not describe trying to 
operate this multiheaded monster in an actual battlefield.
    I mean, you mentioned complexity. We talked about 
multitiered, the caveats. I mean, just to sit there with the 
folks from the ISAF that are trying to run this war, it's 
just--it's just incredibly difficult. The thing that concerns 
me is I don't see any progress made since we were in the 
Balkans and we had to have everybody sign off.
    And I know how difficult this is, and I know you've already 
covered limitless ground, but can any of you give any concrete 
suggestions on politically--and I understand this is a 
political problem, but I think it could become--I mean, it 
could just hinder our ability to do this, and at some point, 
we're just going to say the game's not worth the candle, and I 
am totally opposed to that.
    So politically, what should the President and the Congress 
do to in some way begin to straighten this out so the next time 
we go into a situation, wherever it is, whether it's in Africa 
or wherever, that we have some way to deal, and we can actually 
go to war with a unified complaint without the complexity, 
without the caveats, and without the rest of it, or at least 
minimize them?
    Dr. Hamilton. That's quite a question, Senator. As I said, 
I think there are two levels. One is the overall strategic 
direction for the alliance and how to change things within the 
institution, which I think is the core of the hearing here 
today. And then there's the politics of it, as you said, if you 
don't get the politics right, it doesn't matter all the 
tinkering you do with the bureaucracy, obviously.
    I think we have a serious issue here, which comes to the 
core of this alliance and the core of our relationship. For 50 
years, it was about stabilizing the European contact. When we 
said transatlantic alliance, we meant stabilizing Europe. That 
was where the dangers were. Today, I would argue wider Europe 
is still a task for us, but stabilizing Europe is not 90 
percent of our transatlantic agenda.
    And so the real shift we have to make with our allies, and 
that's the hard part, is that this relationship today is not 
about Europe the continent, as much it is about whether we 
together, Europeans and Americans, are going to address a whole 
range of third issues, either functional issues, like climate 
change, or regional issues, like instability in Southwest Asia, 
together.
    This is the type of relationship we need now to build. That 
requires a serious and probably multiyear conversation with our 
allies about this type of partnership. It also means we have to 
change certain ways we would think about those allies.
    My colleague mentioned how listing all the challenges we 
face in this world and where Europe doesn't seem to be on the 
list. Well, Europe's not on the list of challenges, thank God, 
because of the success of this alliance and what we have done. 
But now we have to say can we have the Europe that's the 
capable partner to be the value added as we engaged in all 
these other issues?
    That Europe's not yet there, but it is potentially there. 
It is not a Europe that would be achieved only through NATO, 
because many of the issues, such as the financial crisis, 
climate change, migration--all of these things, are probably 
done best either bilaterally or with European Union. We need 
more bandwidth across Atlantic to deal with some of these 
issues and not ask a military--a political alliance to deal 
with some of them.
    But I do think that what distinguishes this relationship 
among any other we have is this basic premise: If we do agree 
across Atlantic on almost any issue of some global concern, we 
are almost always the core of the coalition that gets anything 
done. And if we disagree across the Atlantic, still today, we 
stop almost any global coalition from getting anything done.
    There's a two-edged sword to this, but it does highlight 
why this relationship is still highly relevant to the global 
challenges we face--if we can get the kind of partnership that 
I think we would need to be effective.
    Ambassador Hunter. If I may, Senator, I believe that it is 
an imperative for us to fight with our allies. It's never going 
to be easy. It will always make things more complex. But I do 
think it's an imperative.
    Part of this is we've been learning some difficult lessons 
because of the experience in Afghanistan since 9/11. SHAPE NATO 
structures have been designed to figure out how to stitch 
together disparate national contributions into a force. In the 
aftermath of 9/11, we were trying to do that in the Pentagon. 
It was too complicated. We didn't want too many to play in that 
game. Later, politically, we understood the value of that.
    We need to use some of the default NATO force generation or 
planning structures to figure out how 25 Estonians make sense 
in an overall military force, and use some of those structures 
that exist within the alliance.
    We have been playing catchup since day one in Afghanistan, 
where we began with the international presence being led by 
individual NATO countries, very disruptive as we went through 
rotations, then to a NATO-led ISAF, which was divorced from 
most of the U.S. force, which was also disruptive. And now, we 
finally have a command structure that makes a little bit of 
sense, but only as of last year, where you have a U.S. 
commander double-hatted for both.
    So we frankly--we don't--we only have just gotten sort of 
the structure in a more--in a way that makes more sense now in 
Afghanistan. We need to lead with that, rather than take years 
to come out with that. Let me end with that, since our time----
    Colonel Wood. There are two baskets of areas where we have 
to work. The first is we have to keep in mind that our NATO 
allies are democracies. As a result, their leaders are 
accountable, and as a result, they can get tossed out of office 
when their publics get tired of them.
    With that in mind, we have to be very clear, as the 
alliance leader, on our own strategy, and I think in 
Afghanistan, over the last 7 years, we have not done that. 
We've sometimes had a bumper sticker on a comprehensive 
strategy, but in my mind, we have not done a good job of 
explaining a clear strategy to our ends in Afghanistan that 
leaders in Europe could take to their publics, and explain 
clearly and get the kind of support that would make them 
confident as political leaders to join us and to follow us.
    The second is that we need a better public diplomacy 
program, whatever you want to call it, to explain that kind of 
a strategy, to explain our mutual interests, our shared 
interest, and to again, in a sense, mitigate the political 
risks that leaders in Europe are having to take when they 
support the United States in a war that's very difficult for 
them to explain to their own publics. So that's one basket of 
issues, sort of understand that they're democracies, and try to 
lead in that regard.
    The second basket is to look to our own alliance structure 
and how we form coalitions and alliances. In the long run, what 
are the countries who are most likely to have similar interests 
with us that we can build coalitions with and work closely with 
in the future? That may not line up with NATO. It'll line up 
partially with NATO.
    So we need to make clear in our own minds and in the minds 
of others that in the future, we may be working more closely 
with Japan than with others, more closely with South Korea, 
more closely with India, more closely with others around the 
world who have and see shared interests with us than some of 
the NATO allies might see in some particular circumstances, and 
then within NATO, work with those who will work with us.
    The effect of that is potentially to raise this possibility 
of irrelevance for a lot of the senior folks in Europe, for the 
larger countries in Europe, and then force them to make 
strategic decisions about where they need to be for their own 
interests.
    Senator DeMint. Thank you. Thank you. Oh, thank you, Madam 
Chairman.
    Chairman Shaheen. Thank you. I think you've all talked 
about the other threats that our NATO is facing and Europe and 
the United States are facing: cyber security, energy security, 
others. And several of you have pointed out we have to look at 
what is the legitimate scope of NATO's mission as we're 
thinking about the future.
    Could each of you speak to what you think the scope of 
missions should be and what you think limits on that should be, 
if there are any? You want to go first?
    Dr. Hamilton. Madam Chair, in our report, to which I 
referred, we provide a matrix, if you will, of areas in which 
we think NATO should have the lead; areas in which we think 
it's a supporting actor; and then others in which it's more 
sort of part of the band, as the international community has to 
deal with challenges.
    And I think that breakdown starts to get as to discern more 
the appropriate roles for NATO. During the cold war, NATO was 
the institution. That's how we thought about it. Today, with 
this host of different and unorthodox challenges, it doesn't 
always need to be the institution, and sometimes the right 
capabilities are outside of NATO.
    So distinguishing where NATO needs to take the lead and 
where it does not I think helps us. It certainly should take 
the lead in collective defense of its members. That remains its 
core mission. It certainly should take the lead in terms of 
crisis response of this alliance to threats at distance. Crisis 
response. Afghanistan is an example of that. The Balkans at the 
time were another example.
    We don't have another mechanism with our European allies to 
do that. NATO is the instrument. The EU effort wouldn't do 
that. So in those two areas, NATO is clearly the lead and 
should have then the capabilities and the funding priorities to 
make sure it matches that.
    There were other areas, though, where a supporting role is 
more appropriate, for instance what I mentioned earlier, what I 
would call transatlantic resilience issues, societal security 
issues, where some of the primary capabilities have to do with 
law enforcement issues or policing or intelligence. NATO really 
wouldn't have the lead, but it can play a support role.
    Right now, in the Mediterranean, the only article 5 mission 
NATO is engaged in, Operation Active Endeavor, which guards the 
approaches and keeps nasty things out of Europe, is that type 
of mission. It's actually a mission in which the Russians have 
participated.
    So here is an example of an article 5 mission, a core 
mission of NATO, collective defense, that is being carried out 
in cooperation with Russia. It's a different kind of security 
challenge, but I think one that can be developed further.
    Regarding Europe Whole and Free, this issue is not just 
about NATO enlargement. It has to do with the enlargement of 
all of our institutions, to use them to increase the space of 
stability in Europe where war doesn't happen. NATO plays an 
important role in that, but so does European Union. So do other 
institutions. So NATO should be part of a much broader Western 
approach to the region, if it could be done.
    Chairman Shaheen. Well, when do you decide that those 
supporting roles in terms of its societal mission, as you 
called it, spill over into a collective defense mission, and 
how do you draw those lines in a way that address the 
challenges we're facing in the future?
    Dr. Hamilton. That's where I believe now we should do some 
serious work as part of the strategic concept, to start to 
delineate some of those lines. For instance, the concept of 
military support to civilian authorities, which is a fairly 
standard way of thinking about it, starts to get you there. 
Cyber defense--there's a lot of discussion these days about 
cyber defense, particularly against military networks.
    But obviously, that spills over into the civilian realm as 
well, and how--what does one decide? Moreover, as we are 
democracies each of our nations has laws about the role of the 
military in purely domestic matters. This is new territory in 
which we really have some things to think through--especially 
given different traditions within Europe.
    But it seems to me we need to engage now in a new 
discussion about what I would call transatlantic resilience or 
Transatlantic Homeland Security, if you will, if you want to 
use U.S. terminologies. That starts to engage other agencies of 
government, not just the military. Because, as I said, some of 
the other agencies are actually more appropriate to this 
challenge.
    When we had Hurricane Katrina here, our European allies 
helped us. And yet, we were not equipped as a government to 
receive that aid very well. And it wasn't done just through the 
military, it was done in a whole host of ways.
    So as we think to the kinds of, God forbid, catastrophic 
challenges we might face in the future, I think we need to 
think harder about how we confront those potentially, or 
prevent them, with allies. And that's a whole realm which NATO 
is part of as a supporting player, but it certainly engages 
other agencies and other partners and civilian authorities, as 
well.
    Chairman Shaheen. Do either of the rest of--either of you 
want to respond on that?
    Mr. Wilson. I do agree that collective defense and crisis 
response operations are the core where NATO has a lead on this, 
but it's important to think about the next article 5 attack on 
a country. No one expected it to be terrorists in New York. And 
I think that's where NATO's responsibilities in how to maintain 
a collective security guarantee demand that it develops new 
capabilities.
    The next attack is likely to be a cyber attack, a bio 
attack, or from a ballistic missile. Therefore, NATO needs to 
be at the forefront of helping to develop some of those 
capabilities.
    Where it does get more complicated is how does the alliance 
adapt to how we've been adapting our own military in terms of 
the simple military cooperation that Dan talked about that is 
increasingly intellectual common sense to us. We don't have our 
instruments and tools right, and don't know how to work that 
out. Part of the reason is because there is no real strategic 
partnership between NATO and the European Union today. We say 
there's one on paper, but it's stuck. It's a problem. And until 
we get the two institutions to be able to work together 
credibly, we're going to have these creases where some problems 
will fall.
    There is a body that brings together NATO ambassadors and 
EU ambassadors. It doesn't do much today. That's a venue that 
needs to be something that becomes more credible if we're going 
to have our institutions prepared to face some of these real 
challenges.
    So because of the nature of the potential attacks on the 
members, NATO must have an important role in some of these. 
It's in recognition that it has to work in partnership with 
other organizations, and that's where some of the weaknesses 
are right now in our plan.
    Chairman Shaheen. Thank you.
    Colonel.
    Colonel Wood. Just very briefly, Madam Chairman, I think 
the core is article 5, those situations that constitute some 
kind of an attack on a NATO member. Beyond that, I'm a very 
broad constructionist on where I'd like to see NATO involved. 
The only criterion I really have is that there be some military 
component to it, because it is a defense organization. Beyond 
that, if it is a mission for which we can generate political 
will for NATO involvement, I think NATO should be involved, and 
that's for two reasons. One is that will help us in the long 
run avoid the renationalization of defense that NATO was 
originally set up to prevent. And second, it sustains the 
United States-European defense link against modern threats, 
whatever they are.
    That's why I think the missile defense sites in Europe were 
particularly important because they maintained a link between 
European defense and the United States on what is a current and 
future threat, as opposed to territorial defense, which is a 
past threat, for the most part, we hope. We'll see.
    Chairman Shaheen. Thank you.
    Senator DeMint.
    Senator DeMint. I may have missed this when I stepped out, 
and I apologize. But Mr. Wilson, I think you mentioned in your 
testimony that a missile attack may be one of the likely 
threats that NATO would face in the future.
    And given Iran's growing missile capability, state- 
sponsored support of terrorism, what's happening in Pakistan, 
North Korea, how critical do you think a missile defense system 
is in Europe for NATO, and would you distinguish between a 
ground-based versus sea-based, which is being debated right 
now? So just some quick comments there.
    Mr. Wilson. Right. I do think a credible threat to a member 
of the NATO alliance is a ballistic missile strike at some 
point in the future. Because of that, I think it is prudent, 
important, and imperative that the alliance think through on 
how to deal with that threat.
    The alliance has a fairly long history of developing 
theater missile defenses. It has taken too long, but it's been 
deeply invested in that development. The question is out there 
on European third sites related to ballistic missile defense, 
with part of the challenge is how to link what the U.S. effort 
is doing with the NATO effort and potential cooperation with 
Russia on some of this.
    What we've tried to do over time is use the alliance as an 
incubator where you could have development of common threat 
perceptions, sharing of intelligence and data, because that 
underpins the same perception of what's happening. And part of 
what has happened is the debate on missile defense. The 
attention has moved away from Iran and onto a United States-
Russia dynamic, and that's the wrong place for it to be.
    I think using the alliance to contain strategic discussions 
on what the ballistic missile threat is, what capabilities 
being developed around the world are taking place, so that 
there's a common assessment underpinning common action.
    I do think it's an important element that the alliance 
incorporate in its future defense capabilities, and it's very 
much on the table and in debate right now. Part of the 
challenge is can the Russians be brought on board to be 
partners in something along this line in an architecture like 
this, which keeps it clearly focused on a threat emanating from 
the Middle East, rather than being caught up in the political 
charades of this being a United States-Russian problem.
    That's something that has made our allies nervous. I think 
it's addressable, but I do think it's prudent and imperative 
that the alliance continue its work on this front.
    Senator DeMint. Any alternative opinions? OKay. Well, Madam 
Chairman, that's all I've got. It's been very helpful. Thank 
you.
    Chairman Shaheen. Yes, I think we can probably continue 
this discussion for a long time, but we promised not to do 
that, although I'm sure the ongoing discussion about NATO's 
long-term strategic mission will continue. Thank you all very 
much for your willingness to engage with us this afternoon, and 
we look forward to continuing the debate.
    Senator DeMint. Madam Chairman, may I ask to put my opening 
statement in the record?
    Chairman Shaheen. Absolutely.
    Senator DeMint. Thank you very much.


    [The prepared statement of Senator DeMint follows:]


                Prepared Statement of Senator Jim DeMint

    Madame Chairwoman, distinguished witnesses, I thank the committee 
for holding this hearing.
    While there are many trouble spots in the world, Europe has been a 
place of relative security and freedom. No one questions the crucial 
role NATO has played in creating this peace and prosperity.
    However, we must not let the current peace cause us to let down our 
defenses. As the world focuses its attention on North Korea, Iran, 
Afghanistan, and other hot spots, nations and leaders may forget what 
has given us the peace and how old alliances are more important than 
ever as we confront new challenges.
    I'm afraid that the perceived lack of immediate danger may weaken 
the alliance. In an effort to create a ``Europe only'' security policy 
the alliance is being challenged by organizations and policies that 
duplicate the structures of NATO and undermine its access to the 
manpower and equipment necessary to complete missions.
    But more importantly, the lack of unity and strategic focus could 
erode the alliance's willingness to defend the shared values that 
created NATO in the first place. This lack of consensus on strategic 
challenges that face Europe and NATO could undermine decades of 
commitment and work.
    At the summit last month, NATO members agreed with some of these 
concerns, and I am encouraged by the decision to write a new Strategic 
Concept.
    From terrorism to energy supply disruptions, from cyber attacks to 
piracy, there are numerous threats. If done properly, the rewrite can 
be a very useful tool, but it will require a considerable level of 
honesty about ALL of the threats that exist and the internal challenges 
at NATO.
    I am especially concerned by the role Russia is playing inside the 
Alliance. At times, it appears Russia has a stronger voice at NATO than 
some of the alliance's members. While I believe dialogue with Russia is 
necessary, we must approach Russia with a healthy sense of realism and 
possibility.
    Russia has experienced incredible peace and security on its western 
border because of NATO, but they have not returned the favor to NATO's 
Baltic allies or to the other European nations that rely on natural 
gas. And the Russian invasion of Georgia gave some members legitimate 
reason to question NATO's Article 5 security guarantees.
    Still other partners feel NATO is becoming a two-tier alliance 
where only a few countries shoulder the economic and military burdens. 
The strategic rewrite must address these issues and ensure the alliance 
must remain open to nations that aspire to NATO's standards, 
principles, and values.
    One other issue of concern for the alliance is the American nuclear 
umbrella. I fear that President Obama's pursuit of nuclear 
disarmament--coupled with ambivalence on missile defense--will 
undermine the European security guarantees provided by the U.S. nuclear 
arsenal. The U.S. Nuclear Triad has been the backbone of European 
security, which means there is no such thing as unilateral disarmament 
for the United States.
    Despite all of these challenges, I still believe the best days are 
ahead for NATO. It is the commitment to a shared set of values and 
principles--and willingness to defend them--that have made the alliance 
so successful for 60 years. I look forward to hearing your testimonies 
and suggestions for ways the United States can help strengthen NATO and 
support our friends and allies better.
    Thank you.


    Chairman Shaheen. Thank you.
    Senator DeMint. Thank you all very much.
    Chairman Shaheen. Thank you.
    Senator DeMint. Thank you.


    [Whereupon, at 4:21 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
